<html>
<title> - THE ADMINISTRATION'S STRATEGY IN AFGHANISTAN</title>
<body><pre>[Senate Hearing 114-320]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-320

                         THE ADMINISTRATION'S 
                       STRATEGY IN AFGHANISTAN
=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             FIRST SESSION
                              __________

                           DECEMBER 16, 2015
                              __________



       Printed for the use of the Committee on Foreign Relations




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                   Available via the World Wide Web:
                        http://www.fdsys.gpo.gov


                                  

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-949 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          








                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
               Chris Ford, Majority Chief Counsel        
            Margaret Taylor, Minority Chief Counsel        
                    John Dutton, Chief Clerk        


                              (ii)        

  








                            C O N T E N T S

                              ----------                              
                                                                   Page

Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Cunningham, James, senior fellow, the South Asia Center, 
  Khalilzad Chair on Afghanistan, Atlantic Council, Washington, 
  DC.............................................................    32
    Prepared startement..........................................    34
    Afghanistan and U.S. Security--a paper prepared by the 
      Atlantic Council...........................................    64

Jalali, Ali A., distinguished professor, Near East South Asia 
  Center for Strategic Studies, National Defense University, 
  Washington, DC.................................................    36
    Prepared statement...........................................    37

Olson, Hon. Richard, Special Representative for Afghanistan and 
  Pakistan, U.S. Department of State, Washington, DC.............     3
    Prepared statement...........................................     4
    Response to an additional question for the record submitted 
      by Senator Shaheen to Ambassador Olson.....................    63

Sampler, Donald L., Jr., assistant to the administrator for 
  Pakistan and Afghanistan, U.S. Agency for International 
  Development, Washington, DC....................................     6
    Prepared statement...........................................     9
    Responses to additional questions for the record submitted by 
      Senator Cardin to Donald Sampler...........................    57

Vittori, Jodi, senior policy adviser, Global Witness, Washington, 
  DC.............................................................    40
    Prepared statement...........................................    42

                                 (iii)                               
 
                         THE ADMINISTRATION'S 
                        STRATEGY IN AFGHANISTAN

                              ----------                              


                      Wednesday, December 16, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:33 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Perdue, Isakson, 
Barrasso, Cardin, Udall, Murphy, and Kaine.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order. We want to thank our witnesses for being here and, 
certainly, all of our committee members.
    I think in lieu of reading my normal opening statement, I 
just want to make a general statement, and that is that 
yesterday we had a classified briefing. What we hear in 
classified briefings about the direction and the signals and 
all of the things that are occurring in Afghanistan directly 
contradict some of the rosy public statements that are made 
about what is happening within the country.
    I think it is actually alarming to go to a classified 
session and then to hear reports about those discussions in the 
Armed Services Committee itself.
    So with that backdrop, I just want to say to each of you, 
all of us obviously want our Nation to be successful in its 
efforts in Afghanistan. I know there has been a debate about 
the number of troops on the ground. There have been some 
arbitrary numbers that have been thrown out. I know today we 
have 9,800 troops there. Yet, from what I can tell yet, we are 
continuing to lose territory, lose momentum. The status in 
Afghanistan is today that we are moving in a very negative 
direction on the ground.
    So obviously, that is concerning. We know that President 
Ghani has a vast amount of experience, even though he is 
somewhat of a technocrat. He knows there are issues that need 
to be dealt with appropriately within the country.
    But when you look at all of these security issues that are 
being dealt with, certainly it takes away from his ability to 
implement those.
    So we are concerned about security. I think we are 
concerned about any type of reconciliation that is taking 
place. We understand the concerns that exist relative to 
Pakistan. And let us face it, it is them, to a degree, hedging 
their bets. But from the outside, as you watch what is 
happening there, the Taliban is gaining ground, and that is 
just a fact.
    So I hope this hearing today, which will obviously be the 
first public hearing we have had in some time on this topic, 
will help us be illuminated.
    We thank both of you very, very much for your service and 
for being here. And we thank you for your willingness to help 
us with understanding as to what is actually happening there on 
the ground.
    With that, I will turn to Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Mr. Chairman. Thank you for 
calling this hearing.
    I want to thank our witnesses for being here.
    I want to follow the example of the chairman and just lay 
out some basic concerns that I think came out not just as a 
result of yesterday's briefing, but as we have seen of late, 
and that is on how we are doing on the security front in 
Afghanistan. It seems like we are losing ground.
    What happened in Kunduz obviously was a major concern. It 
showed real shortcomings in the Afghan National Defense and 
Security Forces to provide security to the region.
    What have we learned from that? How are we going forward?
    Secondly, the reconciliation process, whether there can be 
a stable government in Afghanistan, representing all the 
interests of the country, and the role that Pakistan is playing 
in that regard. Are they a sincere partner in peace, or are 
they just trying to protect their interests in its relationship 
in that region?
    Third, the development progress in Afghanistan since 2001, 
the resources that we put into Afghanistan, there certainly has 
been a question. Their economy is not performing anywhere near 
a level that would be acceptable for sustainability and 
progress.
    Then yesterday in the New York Times, there was an article 
that raised a question as to whether the Taliban is the key to 
USAID projects, which I would like to get some answers on as to 
what are the short-term, long-term gains and whether our 
investments of U.S. taxpayer dollars are really being 
beneficial in Afghan's future.
    Lastly, the anticorruption efforts, we know the President 
made very strong commitments for anticorruption and yet we see 
virtually no progress in dealing with the corruption issues in 
Afghanistan.
    So I hope what we will do, we have been there for a while, 
what has gone right? Build on that.
    We have done a lot of good things in Afghanistan. I think 
we all acknowledge that. This is not the country it was in 
2001. That is a positive note.
    But things have gone wrong. Have we learned from what has 
gone wrong, so we can make appropriate adjustments to make sure 
that we have an effective policy for the Afghans' future and 
U.S. policy interests?
    I look forward to hearing from our witnesses.
    The Chairman. Thank you, sir.
    We will now turn to our witnesses on the first panel. We 
will hear from two administration witnesses representing the 
State Department and USAID whose portfolios include both 
Afghanistan and Pakistan. Our second panel includes three 
informed experts on Afghanistan and the region. We thank them 
for being here.
    So our first witness is the respected Ambassador Richard 
Olson, the United States Special Representative for Afghanistan 
and Pakistan, and recently returned as our Ambassador from 
Islamabad.
    We thank you very much for a career in public service and 
Foreign Service, and for being here today.
    Our second witness is Donald L. Sampler Jr., assistant to 
the administrator for Pakistan and Afghanistan for USAID. We 
thank you for what you and your cohorts do around the world to 
further U.S. interests.
    So with that, Ambassador Olson, if you would begin, we 
would appreciate it.
    I would just say, as a courtesy to my fellow panelists 
here, the deadline on a couple of issues is 21 minutes relative 
to the other thing we are working on. I may step in and out a 
little bit and miss a little bit, not out of disrespect. Thank 
you.

  STATEMENT OF HON. RICHARD OLSON, SPECIAL REPRESENTATIVE FOR 
AFGHANISTAN AND PAKISTAN, U.S. DEPARTMENT OF STATE, WASHINGTON, 
                              D.C.

    Ambassador Olson. Chairman Corker, Ranking Member Cardin, 
members of the committee, it is an honor to appear before you 
today to discuss the U.S.-Afghanistan relationship and our 
continuing effort to support Afghanistan's progress toward 
security and self-reliance.
    Allow me at the outset to thank the members of this 
committee and the American people for their generous and 
steadfast support for our efforts in Afghanistan. In 
particular, I want to honor the thousands of military 
personnel, diplomats, and development professionals who have 
served and continue to serve in Afghanistan.
    Mr. Chairman, I recently returned from my first visit in my 
current position as Special Representative for Afghanistan and 
Pakistan to Kabul and Islamabad. I can report to you that we 
are at a critical moment in our work in Afghanistan and the 
region as we push for the launch of an Afghan-led peace process 
during the traditional winter lull in fighting between 
Afghanistan and the Taliban.
    The administration remains committed to a stable and secure 
Afghanistan, and we remain convinced that a negotiated 
settlement between the Government of Afghanistan and the 
Taliban is the surest way to end the conflict.
    The Government of National Unity, which came to power in 
the first peaceful and democratic transition of power in 
Afghanistan's history, embodies the potential that Afghanistan 
has to strive for. It has weathered tremendous adversity in its 
first year. It retains its democratic mandate and has 
demonstrated a commitment to be a partner with us in addressing 
our common security interests.
    It is no secret that the bilateral relationship between 
Afghanistan and Pakistan has been difficult. President Ghani 
and Prime Minister Nawaz Sharif have demonstrated true 
leadership in trying to bridge the divide. Both sides show 
readiness to engage, to put differences aside, and build on the 
meeting in Murree, Pakistan, between the Afghan Government and 
Taliban representatives that took place in July of last year.
    Now the Taliban have a choice to join good faith 
negotiations for peace or to continue to fight a war they 
cannot win, and face the consequences. A negotiated Afghan-to-
Afghan settlement while difficult is possible and can be 
accomplished while preserving the gains made in education, 
health, and the rights of women and minorities over the past 
decade.
    Even as we push for progress on peace, the United States 
has a critical role to play in supporting continued development 
of Afghanistan's security capabilities. President Obama 
announced in October that we will maintain 9,800 troops in 
Afghanistan through the end of 2016 to train, advise, and 
assist Afghan forces.
    I believe we are pursuing the right course in Afghanistan, 
but I want to be candid that great challenges remain.
    While the security in Afghanistan remains volatile, we must 
give credit to the Afghan National Defense and Security Forces 
for demonstrating tenacity, ability, and resolve in countering 
attacks.
    While much work on development remains, over the past 
decade, U.S. assistance has made a significant and tangible 
difference in the lives of the Afghan people and has been 
critical to maintaining stability. Per capita GDP has more than 
quadrupled. For the first time, millions of Afghans have access 
to reliable electricity, health care, and independent media, 
and are connected to each other and the world through 
communications technology.
    According to the U.N., we and other donors have helped 
Afghanistan achieve a greater increase in its standard of 
living over the last decade than almost any other country on 
Earth.
    The last decade's progress also is contingent upon 
continued support for Afghanistan. Next year, at the Warsaw 
NATO summit in July and the Brussels ministerial on Afghan 
development in October, we will have an opportunity to work 
with our international partners to lay out a plan for future 
security and economic assistance.
    Of course, our assistance comes with clear conditions, and 
the concept of mutual accountability remains firmly in place. 
Advancing the fight against corruption will be of particular 
importance in that regard.
    The peace process track cannot succeed unless it is paired 
with a strong and credible commitment to Afghanistan's security 
and to its economic priorities and its political leadership.
    Addressing these challenges will not be easy, but I look 
forward to working with you on them in the weeks and months to 
come. Thank you very much.
    [The prepared statement of Ambassador Olson follows:]


           Prepared Statement of Ambassador Richard G. Olson

    Chairman Corker, Ranking Member Cardin, Members of the Committee, 
it is an honor to appear before you today to discuss the U.S.-
Afghanistan relationship and our continuing effort to support 
Afghanistan's progress towards security and self-reliance.
    Allow me at the outset to thank the members of this committee and 
the American people for their generous and steadfast support for our 
efforts in Afghanistan. In particular, I want to honor the thousands of 
military personnel, diplomats, and development professionals who have 
served and continue to serve in Afghanistan.
    Mr. Chairman, I recently returned from my first trip in my current 
position as Special Representative for Afghanistan and Pakistan to 
Kabul and Islamabad, and I can report to you that we are at a critical 
moment in our work in Afghanistan and the region as we push for the 
launch of an Afghan-led peace process during the traditional winter 
lull in the fighting between Afghanistan and the Taliban. The 
Administration remains committed to a stable and secure Afghanistan, 
and we remain convinced that a negotiated settlement between the 
Government of Afghanistan and the Taliban is the surest way to end the 
conflict--a conflict that has taken the lives of more than 2,200 brave 
American servicemen and women and caused immeasurable suffering to the 
people of Afghanistan.
    The Government of National Unity, which came to power in the first 
peaceful and democratic transition of power in Afghanistan's history, 
embodies the potential that Afghanistan has to thrive. It has weathered 
tremendous adversity in its first year, but retains its democratic 
mandate, and has demonstrated a commitment to be a partner with us in 
addressing our common security interests.
    President Ghani recognizes the tough political choices required to 
achieve peace in Afghanistan. He traveled to Islamabad for the Heart of 
Asia Conference, during which he met with Pakistani leaders to promote 
regional counterterrorism initiatives and to discuss a way forward on a 
dialogue with the Taliban.
    It is no secret that the bilateral relationship between Afghanistan 
and Pakistan has been difficult, but President Ghani and Prime Minister 
Nawaz Sharif have demonstrated true leadership in trying to bridge the 
divide.
    Both sides show readiness to engage, to put past differences aside, 
and to build on the meeting in Murree, Pakistan, between Afghan 
government and Taliban representatives that took place in July of this 
year.
    Now, the Taliban have a choice: to join good-faith negotiations for 
peace, or to continue to fight a war they cannot win and face the 
consequences.
    A negotiated, Afghan-to-Afghan settlement, while difficult, is 
possible, and can be accomplished while preserving the gains made in 
education, health, and rights of women and minorities over the past 
decade. Afghanistan's constitution can support and integrate a diverse 
array of political perspectives. The constitution remains the 
foundation of a pluralistic republic that protects human rights-
including women's rights-and provides for the future of all its 
citizens while ensuring the country never again becomes a safe haven 
for terrorists.
    Even as we push for progress on peace, the United States has a 
critical role to play in supporting continued development of 
Afghanistan's security capabilities. President Obama announced in 
October that we will maintain 9,800 troops in Afghanistan through the 
end of 2016 to train, advise, and assist Afghan forces. American 
forces, together with NATO allies and operational partners, will help 
their Afghan partners become more effective in combatting the 
insurgency and protecting the Afghan people.
    While Afghanistan has assumed responsibility for its own security, 
including in counter insurgency efforts, U.S. forces will continue to 
carry out a counterterrorism mission. The goal of this mission is to 
ensure that terrorists never again take advantage of Afghanistan for 
safe haven to attack the United States or our allies in the region and 
beyond. We are working closely with the Afghan government to develop an 
enduring counter-terrorism partnership.
    Mr. Chairman, I believe that we are pursuing the right course in 
Afghanistan, but I want to be candid about the great challenges that 
remain.
    The security environment in Afghanistan remains volatile. As we 
expected, the Taliban mounted an aggressive campaign this year in an 
effort to exploit the drawdown of international forces. This year the 
Taliban took control of several district centers; launched large-scale 
attacks in a number of provincial capitals; and struck in the heart of 
Kabul.
    We must, however, give credit to the Afghan National Defense and 
Security Forces for demonstrating tenacity, ability, and resolve in 
countering these attacks. When the Taliban made gains during the year, 
as in Kunduz City, Afghan forces pushed them back. U.S. forces provided 
some in extremis enabling support, but Afghan forces were--and remain--
at the fore of the tactical fight.
    At the same time, we must also recognize that Afghanistan cannot 
yet realize its full potential without the continued support of its 
international friends and allies--foremost the United States.
    Despite tremendous development gains over the last decade, 
Afghanistan remains one of the poorest nations in the world, and the 
drawdown of international forces has further stressed what was already 
a weak economy.
    We need to maintain our development assistance as we work to enable 
Afghanistan's young population to step forward and replace its 
artificial war economy.
    It is important both for Afghanistan's economic and security 
prospects that we help the Afghan government restore public confidence 
in a brighter future.
    We are already seeing large numbers of Afghans departing the 
country in hopes of finding opportunity in Europe and elsewhere. With 
them goes a wealth of human capital which Afghanistan's fledgling 
economy sorely needs. It is in our interest to help Afghanistan reverse 
this trend.
    Over the past decade, U.S. assistance has made a significant and 
tangible difference in the lives of the Afghan people and has been 
critical to maintaining its stability. Per capita GDP has more than 
quadrupled. For the first time, millions of Afghans have access to 
reliable electricity, health care, and independent media, and are 
connected to each other and the world through communications 
technology. According to the UN, we and other donors have helped 
Afghanistan achieve a greater increase in its standard of living over 
the last decade than almost any country on earth. These gains have 
created a foundation for a more stable future in Afghanistan that will 
not only benefit the Afghan people, but will advance U.S. national 
security interests in a more peaceful region.
    Mr. Chairman, with the continued support of Congress, we will build 
on this foundation and we will work to help Afghans address their 
challenges. We have a strong and enduring partnership with Afghanistan 
and it is in our interest to ensure that Afghanistan succeeds in 
addressing the economic needs and aspirations of its people.
    President Ghani shares our goal of making Afghanistan self-reliant.
    As we work with President Ghani and his team on their economic 
agenda, we will not be working alone. We have a strong international 
network of partners who fully share our goals and are prepared to 
continue our common efforts in Afghanistan.
    Next year, at the Warsaw NATO Summit in July and the Brussels 
Ministerial on Afghan Development in October we will have an 
opportunity to work with our international partners to lay out a plan 
for future security and economic assistance.
    Our assistance does, however, come with clear conditions, and the 
concept of mutual accountability remains firmly in place. To justify 
our continued support, the government must deliver on the economic and 
governance reforms it committed to in the Self Reliance Through Mutual 
Accountability Framework that was adopted in Kabul in September. We 
will use the upcoming donor conferences coupled with the incentives 
under our New Development Partnership as action-forcing events to 
encourage Afghan progress on reform priorities including countering 
corruption; improving fiscal sustainability; and empowering Afghan 
women.
    Advancing the fight against corruption will be of particular 
importance. Some positive steps have occurred: President Ghani, with 
the full support of CEO Abdullah, has adopted improved anti-money 
laundering regulations, charged corrupt judges, established a National 
Procurement Commission, and fired corrupt government officials. This 
momentum must be maintained and more must be done.
    Let me conclude by stressing again that our approach in Afghanistan 
involves hard work on several tracks. The peace process track cannot 
succeed unless it is paired with a strong and credible commitment to 
Afghanistan's security and to its economic priorities and to its 
political leadership. It will also require continued concerted 
engagement with our friends and partners in the region and beyond.
    It will not be easy, but I look forward to working on these 
challenges with you and I am confident that with your continued support 
we have the ingredients in place to succeed.
    Thank you for your attention. I look forward to your questions.


    The Chairman. Thank you.
    Mr. Sampler.

     STATEMENT OF DONALD L. SAMPLER, JR., ASSISTANT TO THE 
  ADMINISTRATOR FOR PAKISTAN AND AFGHANISTAN, U.S. AGENCY FOR 
          INTERNATIONAL DEVELOPMENT, WASHINGTON, D.C.

    Mr. Sampler. Chairman Corker, Ranking Member Cardin, 
members of the committee, thank you for the opportunity to 
testify before you today to discuss USAID's civilian assistance 
activities in Afghanistan.
    Let me also begin by thanking the individuals present today 
who have served in Afghanistan, as well as their families. And 
I am proud to include among those brave Americans diplomats of 
the U.S. Department of State, aid workers from USAID, and the 
thousands of men and women working shoulder to shoulder with us 
as partners in Afghanistan over the past decade.
    I would also like to recognize the Afghans who continue to 
work and to sacrifice to make their country a place that is 
safe, secure, and a good neighbor in the region.
    The thousand of Afghans working both in and out of 
government to secure a bright future for themselves and their 
families matter. Any strategy we discuss here today is 
predicated upon their continued dedication and our resolute 
support.
    Our work in Afghanistan reflects USAID's mission. We 
partner to end extreme poverty and promote resilient democratic 
societies while advancing America's own security and 
prosperity. USAID civilian assistance programs in Afghanistan 
are a critical component of our core U.S. national security 
objective of a stable Afghanistan that Al Qaeda and other 
terrorists cannot use as a base to threaten the United States, 
our interests, and our persons abroad.
    We remain committed to assistance programs in Afghanistan 
that are effective, accountable, and sustainable.
    In my written testimony submitted for the record, I detail 
some of the rigorous oversight and monitoring methods that 
USAID has implemented to prevent waste, fraud, and abuse and to 
ensure that American investments in Afghanistan are making a 
lasting impact.
    USAID's central goal in Afghanistan is to promote a stable, 
inclusive, and increasingly prosperous country. During the past 
decade, Afghanistan has made remarkable development gains 
across multiple sectors, thanks to the whole-of-government 
efforts of the United States along with our international 
partners, the Afghan Government and the Afghan people.
    The key elements of USAID's Afghanistan strategy call for 
making durable the significant achievements in health, 
education, and the gains of women; focusing on economic growth 
and fiscal sustainability of the Government of Afghanistan; and 
supporting legitimate and effective Afghan Governance and, in 
turn, promoting stability.
    USAID's strategy going forward will be founded on our 
successes, informed by our failures, and shaped by our 
consultations with the Government of Afghanistan, other donors, 
and the U.S. interagency.
    The successes have been, in some cases, remarkable. 
Specific examples include: life expectancy has increased in 
Afghanistan from 42 years to over 62 years, maternal mortality 
rate has declined by 75 percent, and child mortality has 
decreased by 62 percent.
    In 2002, there were less than 1 million Afghans in school 
anywhere. Now there are millions of children in school and over 
a third of them are girls.
    In 2002, there were virtually no telephones in Afghanistan. 
Any call internationally had to be made over a handheld 
satellite phone. Today, the combined phone company coverage is 
88 percent of the Afghan population. The telecommunications 
industry is Afghanistan's greatest source of foreign direct 
investment. It is the largest remitter of taxes to the 
Government of Afghanistan, and it is the biggest employer in 
Afghanistan, employing over 138,000 Afghans.
    In 2002, when I first arrived in Afghanistan, only 6 
percent of Afghans had access to electricity. Today, more than 
30 percent of the Afghan population is connected to the grid. 
The Afghan Government, with the support of USAID, established 
Afghanistan's electrical utility DABS just about 6 years ago. 
Today, DABS no longer receives a subsidy from the Afghan 
Government and has turned a profit each year since 2011.
    While it is never comfortable to talk about failures, in an 
engagement as complicated and difficult as Afghanistan, 
failures are inevitable. What is important is that the failures 
are recognized as quickly as possible and that remedies are put 
in place to correct the failure and prevent its recurrence.
    USAID works hard all around the world to be an agile, 
adaptive, and learning organization. Since 2002 in Afghanistan, 
in virtually every sector of our portfolio, we have had to make 
adjustments based on our own monitoring and evaluation or on 
the observations of various auditors or the media. Examples of 
the kinds of modifications: In education, we designed and 
launched a community-based education program that was going to 
be implemented by the Ministry of Education. But we quickly 
discovered the ministry was not yet capable of executing this 
program, so no funds were dispersed. Instead, we redesigned a 
different mechanism. The award was made to UNICEF, an 
international organization, and it has resulted in over 800 
community-based schools and over 700 accelerating learning 
centers for out-of-school youth.
    Finally, our strategy going forward will be shaped by 
consultations with the Government of Afghanistan, our 
interagency partners, and other donors.
    In 2012, the Tokyo conference established a mutual account 
accountability framework that held Afghans accountable to us 
and held us accountable to that Afghans.
    In 2014, the London ministerial revisited those commitments 
and pointed the way toward a conference next year in Brussels 
where we will again revisit our mutual accountability.
    Finally, in conclusion, USAID knows well the risks and 
sacrifices that Americans, our troops, our diplomats, and their 
families, face every day to serve in Afghanistan. Since 2001, 
451 civilians working for USAID partners have been killed and 
close to 1,000 have been wounded. I have attended at the 
funerals for U.S. civilian employees in Afghanistan who were 
killed.
    We take very seriously the investment in blood and treasure 
made in Afghanistan, and we work hard to be good stewards of 
the resources provided to us.
    As USAID looks to 2016 and beyond, the agency is committed 
to making every effort to safeguard taxpayer funds and ensure 
that development progress in Afghanistan is maintained and made 
durable in order to secure our overall national security 
objectives.
    It is an honor to be able to share with you today a small 
glimpse of what AID is doing in that regard, and I look forward 
to your questions.

            [The prepared statement of Mr. Sampler follows:]



                  Prepared Statement Donald L. Sampler

    Chairman Corker, Ranking Member Cardin and Members of the 
Committees, thank you for the opportunity to testify before you to 
discuss the U.S. Agency for International Development (USAID)'s 
civilian assistance activities in Afghanistan. It is an honor to appear 
before you with the Department of State's Special Representative for 
Afghanistan and Pakistan, Ambassador Richard Olson.
    Mr. Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to appear before you to discuss USAID's past 
and future work in Afghanistan. My name is Larry Sampler and I am the 
Assistant to the Administrator for the Office of Afghanistan & Pakistan 
Affairs at USAID. I have worked in and on Afghanistan since 2002, in 
senior positions supporting the U.S. military commander and the 
Department of State; as the Chief of Staff of the U.N. Mission in 
Afghanistan; and as the Vice-President for a U.S. corporation working 
there and in a dozen other countries emerging from conflict.
    Let me begin by thanking the individuals who have served in 
Afghanistan, as well as their families. And I am proud to include among 
those brave Americans, diplomats of the U.S. Department of State, aid 
workers from the U.S. Agency for International Development, and the 
thousands of men and women working shoulder to shoulder with us as 
contractors in Afghanistan over the past decade.
    I would also like to recognize the Afghans who continue to work--
and sacrifice--to make their country a place that is safe, secure, and 
a good neighbor in the region. The thousands of Afghans working both in 
and out of government to secure a bright future for themselves and 
their families matter. And any strategy we discuss here today is 
predicated upon their continued dedication and our resolute support.
    Our work in Afghanistan reflects USAID's mission: We partner to end 
extreme poverty and promote resilient, democratic societies while 
advancing our security and prosperity. USAID's civilian assistance 
programs in Afghanistan are a critical component of our core U.S. 
national security objective of a stable Afghanistan that al-Qaeda and 
other terrorists cannot use as a base to threaten the United States, 
our interests, or U.S. persons overseas. Afghanistan, and consequently 
the region as a whole, presents both enormous opportunities and 
enormous challenges. This region, wracked with conflict for much of the 
last three decades, remains one of the least economically integrated in 
the world, with the majority of its human and economic potential 
untapped.
    As we have noted before, this does not have to be the case, but 
sustainable economic development will require the region's leaders to 
make fundamental changes. Our U.S. civilian assistance programs can be 
a catalyst and incentive for change, and our efforts in Afghanistan 
today are delivering tangible, measurable results that contribute to 
this potential transformation. Our efforts to spur investment in small 
Afghan enterprises and expand trade ties in the region all contribute 
to our effort to defeat al-Qaeda and stabilize the region.
    We remain committed to an assistance program in Afghanistan that is 
effective, accountable, and sustainable. We also remain committed to 
ensuring accountability for U.S. taxpayer dollars and program results. 
Later in my testimony, I will detail the rigorous oversight and 
monitoring methods that USAID has implemented to safeguard from waste, 
fraud, and abuse, and ensure that American investments in Afghanistan 
are making a lasting impact.
    This past September, I joined representatives from 41 countries and 
11 international organizations at the Senior Officials Meeting in 
Kabul, where President Ghani and other leaders from the Afghan National 
Unity Government reiterated their broad strategy for the future, a plan 
for how to get the highest return on the investments made during these 
past thirteen years. The U.S. and our donor partners reaffirmed our 
partnership and recognition of the need for mutual accountability to 
achieve these returns.
    The stability of Afghanistan, amidst the drawdown of U.S. and other 
Resolute Support combat forces, will require sustained effort to cement 
the important development gains that have been made over the past 
thirteen years and mitigate the economic consequences of the reduction 
in military presence. We have seen the dire consequences of neglect and 
disengagement play out in this region before, and USAID is in 
solidarity with our colleagues at the State Department and Department 
of Defense--all of us remain committed to a self-reliant Afghanistan.
    USAID's central goal in Afghanistan is to promote a stable, 
inclusive and increasingly prosperous country. During the past decade, 
Afghanistan has made remarkable development gains across multiple 
sectors, thanks to the whole-of-government efforts of the United 
States, along with our international partners, the Afghan government 
and the Afghan people. The key elements of USAID's Afghanistan strategy 
going forward call for making durable the significant achievements in 
health, education, and for women; focusing on economic growth and 
fiscal sustainability to mitigate the economic impact of the troop 
drawdown and declining levels of civilian assistance; and supporting 
legitimate and effective Afghan governance, and in turn promoting 
stability.
    With regard to the issues facing the new Afghan government and the 
implications of the U.S. troop drawdown, I know from personal 
experience that the progress made in Afghanistan is remarkable, yet 
fragile. USAID has been planning and adjusting its programming in 
anticipation of the transition, to maximize sustainability and ensure 
oversight and accountability of the resources the American people have 
provided in support of Afghanistan.
    Weaning Afghanistan from unsustainable levels of assistance is 
necessary for us, and essential for them. To achieve this goal without 
triggering instability, we believe it is essential to continue to 
provide assistance in areas critical to Afghan development and 
stability. To do this with fewer resources, we are making tough 
decisions and prioritizing investments that have the greatest potential 
for long term sustainability.
                          usaid contributions
    In Afghanistan, USAID, along with other donors, has helped Afghans 
achieve extraordinary gains for a country that in 2002 had virtually no 
access to reliable electricity, roads or modern telecommunications, and 
disadvantaged almost half of its population--women and girls--by 
prohibiting them from contributing fully to Afghan society. Specific 
examples include:

   Health: Life expectancy has increased from 42 years to over 62 
        years between 2002 and 2012; the maternal mortality rate has 
        declined by 75 percent; and child mortality decreased by 62 
        percent.
   Education: In 2002, there were approximately 900,000 Afghan 
        children in school, and virtually no girls. Today, millions of 
        children are enrolled in school and more than one-third of them 
        are girls.
   Mobile Technology: In 2002, there were few fixed telephone lines 
        and making calls outside of Afghanistan required a satellite 
        phone. Today, the combined phone network covers 88 percent of 
        the Afghan population. The telecommunications sector is 
        Afghanistan's greatest source of foreign direct investment, 
        largest remitter of taxes to the government, and biggest licit 
        employer, providing jobs for over 138,500 Afghans.
    Energy: In 2002, only 6 percent of Afghans had access to reliable 
        electricity. Today, more than 30 percent are connected to the 
        electricity grid. The Afghan government, with support from 
        USAID, established Afghanistan's electrical utility, DABS, just 
        six years ago. Today, DABS no longer receives a subsidy from 
        the Afghan government and has posted a profit each year since 
        2011. USAID is supporting DABS to complete the third turbine at 
        Kajaki and to handle the procurement of construction contracts 
        to build more than 500 kilometers of transmission lines and 
        seven substations to connect power from Kabul to Kandahar. When 
        complete, the transmission line will provide sustainable power 
        to roughly 1.1 million Afghans in Kandahar and areas along the 
        Highway 1 economic corridor.
                       supporting women and girls
    Women and girls in Afghanistan are integral to ensuring the 
country's future stability and economic prosperity. USAID is 
implementing gender-focused programming and ensuring that gender is a 
cross-cutting priority across all program areas.
    In Afghanistan, USAID is implementing the Agency's largest gender 
program in the world, known as ``Promote.'' A five-year program, 
Promote builds on the achievements women and girls have made since 2001 
by developing a cadre of 75,000 educated Afghan women between the ages 
of 18 and 30, empowering them to fully participate in the economic, 
political, and civil society sectors of Afghan society. It will help 
women establish or expand small-to medium-sized businesses; help civil 
society organizations increase their knowledge and skills so they can 
better support women's rights, outreach and advocacy campaigns; 
facilitate fellowships with relevant Afghan government ministries and 
agencies with a goal of achieving a critical mass of women in the civil 
service; and train women in the public, private and civil service 
sectors in management and leadership.
                 afghanistan programming moving forward
    In Afghanistan over the past three years, USAID has shifted the 
focus of its programs from a focus on stabilization and infrastructure 
to a focus on creating the basis for sustainable, long-term 
development. As noted above, USAID's strategy in Afghanistan is 
threefold:

   Maintaining and making durable the gains made in health, education, 
        and for women;
   Supporting continued economic growth and employment through a focus 
        on agriculture and private sector development, operations and 
        maintenance of infrastructure investments, and responsibly 
        developing the extractives industry, all key to ensuring future 
        fiscal sustainability; and
   Fostering legitimate and effective Afghan governance, the rule of 
        law, and a robust civil society.

    Operationally, USAID has adjusted its implementation model to 
improve sustainability and meet the challenges presented by the 
transition. Key adjustments include:

   Developing a multi-tiered monitoring approach to address reduced 
        mobility and decreased field staff that, along with other 
        monitoring and evaluation efforts, will continue to ensure 
        appropriate oversight of projects;
   Transforming USAID's approach in Afghanistan to one of mutual 
        accountability that incentivizes government performance by 
        conditioning assistance on the Afghan Government's achievement 
        of policy reforms and service delivery that improves government 
        involvement and ownership of development results; and
   Focusing on long-term sustainability through implementing three key 
        principles: (1) increasing Afghan ownership and capacity; (2) 
        contributing to community stability and public confidence in 
        the Government of Afghanistan; and (3) implementing effective 
        and cost-efficient programming.
        the united states' enduring partnership with afghanistan
    The United States is committed to strengthening its partnership 
with Afghanistan over the coming years to ensure that development 
assistance from the United States continues to support Afghanistan's 
path to self-reliance.
    During President Ghani's first official visit to the U.S. this past 
March, President Obama announced the establishment of USAID's New 
Development Partnership with the National Unity Government. This four-
year initiative reinforces our commitment to results and accountability 
by linking up to $800 million of our development assistance to specific 
benchmark reforms focused on ensuring fiscal sustainability, governance 
and anti-corruption, reducing poverty and enhancing inclusive growth.
    The U.S. Government committed at the 2010 London Conference on 
Afghanistan, and reaffirmed in subsequent international conferences, to 
provide 50% of civilian assistance on-budget in return for progress on 
measurable reform benchmarks in various areas including elections, sub-
national governance, public finance, human rights, and economic growth. 
USAID provides on-budget funding through multi-donor trusts funds like 
the World Bank-administered Afghanistan Reconstruction Trust Fund 
(ARTF) and through direct government-to-government assistance.
    Direct assistance to the Afghan government is used to build the 
Afghan government's ability to sustain the investments and gains made 
over the last decade and to reduce its dependence on donors. 
Afghanistan must continue to build its their capacity to govern and 
provide services to its people. Providing direct assistance is an 
important mechanism for accomplishing this goal.
    At the same time, USAID has put in place stringent measures to 
safeguard taxpayer funds, and only partners with ministries that 
responsibly mitigate risk. This is in keeping with commitments made by 
both the previous and current U.S. Administrations to increase our work 
through local governments and organizations. Such work is crucial for 
fulfilling the ultimate goal of assistance, namely helping Afghanistan 
become self-sufficient. While the process of providing direct 
assistance needs to be done in accordance with strict oversight and 
accountability that can often slow implementation of programs, the 
results promise to create a more sustainable development outcome.
        central and south asia regional connectivity programming
    USAID is also working in coordination with the Department of State 
to encourage regional connectivity and to develop Afghanistan as a 
trading and energy hub for the region. By doing this, we can play an 
important role in bringing greater prosperity and stability to one of 
the least economically integrated regions in the world. I just returned 
over the weekend from Islamabad, where I attended the Heart of Asia 
conference with Deputy Secretary of State Tony Blinken and SRAP Olson. 
President Ghani attended, alongside foreign ministers from Pakistan, 
China, India and regional neighbors, and renewed his commitment to 
investing in regional partnership and collaboration.
    USAID is playing our part. Our Afghanistan Trade and Revenue (ATAR) 
project has been instrumental in providing the technical assistance 
essential to Afghanistan's accession into the World Trade Organization, 
which we anticipate will be approved at the ministerial in Kenya this 
week.WTO membership will further connect Afghanistan with the 
international economy and expand opportunities for business.
    USAID is also laying the groundwork for a more economically 
connected region by facilitating trade and providing technical 
assistance for regional energy projects, such as the World Bank's 
Central Asia and South Asia Electricity Transmission and Trade (CASA-
1000) project, which sees Tajikistan and the Kyrgyz Republic exporting 
surplus hydropower to Afghanistan. This will help alleviate the 
country's chronic power shortages which are a powerful brake of 
economic development and affect the poorest worst of all. We are 
promoting business-to-business networking and helping to address cross-
border trade barriers, so that it is easier for Afghanistan to do 
business with its neighbors.
    We are working with millers in Kazakhstan to ensure that flour 
exported to Afghanistan is fortified in an effort to tackle the 
appalling rates of malnutrition and stunting that affect children under 
five in Afghanistan and in the wider region. And in a region that is 
already facing water shortages and is forecast to be badly affected by 
climate change, we are helping Central Asian countries, including 
Afghanistan, to better manage trans-boundary water resources to that 
future needs can be better managed. These interventions are already 
having an impact. In 2002, only six percent of Afghans had access to 
electricity. Today, over 30 percent have access. Our efforts to help 
the Afghan government reform its customs systems and mitigate 
corruption resulted in a pilot program for custom duties introduced 
earlier this year in Kabul and is being expanded to additional 
locations in the north this month. So, while many challenges remain, it 
is important to remember that progress is being made.
    Afghanistan will continue to depend on the international community 
for support. USAID will continue to work with other donors to help the 
Government grow its economy so that it meets key reform targets and 
becomes less dependent on external assistance over time.
                      oversight and accountability
    USAID has learned important lessons over the course of its 
engagement in Afghanistan, and has drawn on experiences in other 
challenging environments--including Iraq, Pakistan, Yemen, Sudan, and 
Colombia--to put in place strong oversight of U.S. assistance funds.
    In addition to standard USAID oversight measures implemented 
worldwide, in Afghanistan USAID has implemented additional measures 
designed to prevent funds from being diverted from the development 
purpose to malign actors. For example, the USAID Mission established a 
Vetting Support Unit in February 2011. The unit conducts checks on non-
U.S. companies and non-U.S. key individuals for prime contractors, sub-
contractors, grant recipients and sub-grantees to determine whether or 
not they are associated with known malign entities or individuals. 
USAID has kept approximately $650 million from being awarded to those 
who did not meet our vetting requirements.
    To ensure our projects are being implemented properly, USAID is 
implementing a multi-tiered monitoring approach that allows us to 
triangulate monitoring data from multiple sources, validate findings, 
and make better programmatic decisions. The levels of monitoring 
include: (1) direct observation by USG personnel; (2) implementing 
partner reporting; (3) feedback from Afghan government officials and 
other donors; (4) local civil society organizations and beneficiaries; 
and (5) the use of independent monitoring agents in the field.
    Building on past monitoring experience in Afghanistan, USAID 
recently awarded the new Monitoring Support Project. This project 
utilizes a variety of monitoring methods to verify project data, 
including site visits, GPS and time/date stamped photos, interviews, 
and crowdsourcing. Independent monitoring, however, is not the only 
source of monitoring data. Rather, it is one of the five tiers in the 
multi-tiered monitoring approach that USAID uses to validate monitoring 
data from multiple sources.
    Although there are inherent risks in doing business in a country 
like Afghanistan, USAID prioritizes the effective and accountable use 
of taxpayer dollars and does not assume that there is any level of 
acceptable fraud, waste, or abuse in our programs. This means that 
oversight must be a process of continual re-examination of ongoing 
efforts, and that there must be flexibility to adjust to new security 
and operational environments as they arise.
                               conclusion
    USAID knows well the risks and the sacrifices that Americans, our 
troops, diplomats, and their families take every day to serve in 
Afghanistan, whether in a military capacity, as a government civilian, 
or as an implementing partner. Since 2001, 451 people working for USAID 
partner organizations in Afghanistan have been killed and another 809 
wounded.
    As USAID looks to 2016 and beyond, the agency is committed to 
making every effort to safeguard taxpayer funds and ensure that 
development progress in Afghanistan is maintained and made durable, in 
order to secure our overall national security objectives. It is an 
honor to be able to share with you today a small glimpse of what USAID 
is doing in that regard. I look forward to answering any questions that 
you may have.


    The Chairman. Thank you very much for that testimony. I am 
going to do some interaction along the way and turn at present 
to Senator Cardin for questions.
    Senator Cardin. Once again, thank you both for the role 
that you have played in the development and Afghanistan. It is, 
certainly, a much different country than it was in 2001. A lot 
of progress has been made.
    But there is reason for concern about its future, so let me 
ask a couple questions.
    Ambassador Olson, first, let me ask, what are the lessons 
learned from Kunduz? Have we made strategic changes in the 
security arrangements in order to prevent a similar episode 
from occurring in the future?
    Ambassador Olson. Thank you, Senator.
    The attack on Kunduz was representative of a real challenge 
that the Government of Afghanistan faces. The Taliban had been 
waging a particularly aggressive campaign in 2015 throughout 
the fighting season. As you know, the Afghan National Defense 
and Security Forces were forced to temporarily cede territory 
in parts of Helmand, as well as in the city center of Kunduz. 
Over the course of 2 weeks, the Taliban occupied Kunduz. As 
General Campbell has acknowledged, this was a public relations 
victory for the Taliban.
    It is important to note, however, that the Afghan National 
Security Forces did retake Kunduz and has government forces 
have maintained control of Kunduz since that time.
    The Government of Afghanistan is in the process of looking 
at lessons learned from that experience, and there has been a 
report that has been prepared with the Government of 
Afghanistan, and they are considering the responses that they 
are going to make. My understanding is it includes greater 
lash-up between provincial authorities and central authorities, 
which is perhaps one of the contributing factors to the 
weakness in Kunduz.
    I would, of course, have to defer to my colleagues from the 
Defense Department on any specific responses in terms of 
military developments and the train-and-assist program.
    Senator Cardin. Mr. Sampler, let me turn to the question I 
raised during my opening comments, the troubling article that I 
read in the New York Times that indicates USAID programs are 
maybe dependent upon Taliban support and, therefore, Taliban 
getting more support as a result of USAID, perhaps 
strengthening their hold, contrary to our objective in the 
tribal areas.
    There are short-term gains to try to help in regard to our 
military objectives. There are long-term development goals that 
we are trying to achieve in Afghanistan. When we confuse the 
two, sometimes we get into trouble.
    Are we getting our dollar's value? And is there any truth 
to the report that the Taliban is taking credit for the aid 
coming into tribal areas?
    Mr. Sampler. Senator, thank you for the question.
    Headlines like the one you cited are not how I like to 
start my mornings when I wake up each day and look through the 
paper.
    Jim Risen's work is good and the New York Times stories are 
typically fact-based. This one has some issues that I will 
challenge. There was a study done, which this report was based 
on, on measuring the impact of stabilization activities in 
Afghanistan. This was requested by USAID. It was our own 
attempt to make sure there were not gaps or problems, and that 
we could identify them, if there were.
    They studied over 5,000 villages. They conducted 100,000 
interviews. Of the 5,000 villages they studied, either five or 
13, depending on how you run the math, they found a 
correlation, not causality, but they found correlation between 
our programs and an increase in Taliban support.
    So the story focused unnaturally, in my opinion, on what is 
basically one-tenth of 1 percent of the work that we did in 
Afghanistan where, in fact, we discovered ourselves that there 
may have been a correlation between our work and support for 
the Taliban.
    What is not mentioned in this story is the other 99.9 
percent, literally, of the programs that either showed no 
change or showed an actual improvement in support for the 
government.
    In Afghanistan, as is the case everywhere, all politics are 
local. So these local projects are important to give Afghans in 
these villages a sense that they are part of a community and 
part of Afghanistan.
    With respect to the second half of your question about 
short term versus long term, part of the challenge of being a 
development professional in a place like Afghanistan is making 
sure that the important initiatives that are done to achieve 
short-term gains correspond with and support long-term 
development objectives. That is not always easy. In some cases, 
it is actually problematic.
    But the other part of my job, of which I am quite proud, is 
that the team that I have in Afghanistan that works for 
Ambassador Olson and Ambassador McKinley does an excellent job 
in making sure we to get a return on our investment. When we do 
not, we stop the program to find why we are not.
    Senator Cardin. Thank you.
    Ambassador Olson, I do not think we are going to make 
progress in Afghanistan unless we really have changes in 
anticorruption activities. I know the President has made pretty 
strong statements about fighting corruption, but we have not 
seen much action in fighting corruption. A later witness will 
give us some specific recommendations, such as a confirmed 
Attorney General or providing a strong monitoring and 
evaluation committee, passing laws that provide stronger 
penalties, and implementing the EITI.
    Do you have a game plan for holding Afghanistan to 
accountability on their anticorruption efforts and not just the 
statement of the President, which I think is sincere but has 
not been backed by any action?
    Ambassador Olson. Thank you very much for the question, 
Senator.
    We are indeed intent on holding the Government of 
Afghanistan to its promises to address the question of endemic 
corruption in Afghanistan.
    Just to review a little bit what has happened so far, we 
were encouraged by President Ghani's decision to reopen the 
investigation into the Kabul Bank scandal and the effort of the 
Government of Afghanistan to recover assets.
    We were then, I must say, discouraged by the fact that one 
of the main co-conspirators was released from prison and 
started working on Kabul housing development projects.
    At this point, we understand that Mr. Frozi is back in jail 
and the deal has been invalidated. We will continue to watch 
that.
    But more generally, the Government of Afghanistan under 
President Ghani, and with the full support of CEO Abdullah, has 
adopted improved anti-money-laundering regulations, prosecuted 
judges complicit in the release of a drug trafficker, and 
established a national procurement commission, which halted a 
series of illegal procurements in the Ministries of Defense and 
Interior.
    Going forward, I think we really need to continue to 
condition our assistance to the updated mutual accountability 
framework that was decided at Tokyo. That will be an important 
part of our discussions with the Government of Afghanistan as 
we prepare for the big conferences coming up this summer, first 
in Warsaw dealing with security assistance, and then in 
Brussels in October dealing with development assistance. I 
think we need to update the mutual accountability framework and 
come up with very specific conditions for future assistance.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Perdue?
    Senator Perdue. Thank you, Mr. Chairman.
    I thank both of you for your service. But I want to focus 
on a couple reports that are just coming out.
    I was there in April, and I was honored to meet with 
General Campbell, President Ghani, CEO Abdullah, and our 
Ambassador, Ambassador McKinney. I have to tell you, just some 
7 or 8 months later, it is shocking to see the difference in 
taking two Polaroid shots of the situation.
    They were just getting ready to go into the fighting 
season. Of course, now, General Campbell, just last month or in 
October, said, and this was in testimony to Congress: There was 
no winter lull this year in fighting. Since February, the 
fighting has been almost continuous. The violence has moved 
beyond traditional insurgent strongholds such that today over 
half of the 398 districts are under high or extreme Taliban 
threat today.
    I am coming to a quick question, but Kunduz, we know about. 
Then the Pentagon today just released its report to Congress. I 
know we do not have a DOD rep here, but I want to get from the 
State Department your perspective on that only that report, but 
the situation as it stands right now.
    Their report says that Taliban attacks, we have higher 
casualties of Afghan forces. The Afghan-Pakistani border region 
is a haven for various groups. I was shocked at the number of 
groups it talks about in that report.
    Then Dr. Fred Kagan recently in an AEI report testified 
that he is not real sure, and I quote, ``not confident that 
there will actually be an Afghanistan when our next President 
takes office.'' That is a severe description of the picture.
    But given the situation right now, and the fact that the 
military in Afghanistan has some 180,000 troops. We still have 
9,800. General Campbell won the argument. But we are moving to 
a situation where we are about to have 5,000 or so U.S. troops 
there.
    My question is, what does next year look like? What does 
this fighting season look like? How deep is this threat?
    ISIS has grown dramatically, as we see in the reports, just 
since April. In April, it was not even a major conversation. 
Now it is a primary part of any dialogue you have with people 
in Afghanistan.
    So from the State Department perspective, what is our 
strategy right now in Afghanistan?
    Ambassador Olson. Thank you very much, Senator, for that 
question.
    I would say, looking back at the past few months, and, of 
course, I am not really in a position to describe the military 
response, which is the responsibility of my colleague and 
friend General Campbell, but I will say that it strikes me at a 
political level that part of the reason we saw such a strong 
Taliban offensive over the course of the past few months was in 
part a reaction to the revelation of the death of Mullah Omar. 
I think that there was intense competition amongst the various 
Taliban commanders, which played itself out in part in 
increased violence.
    I was just in Kabul last week. I met twice with President 
Ghani. He is absolutely determined that 2016 cannot be a 
repetition of 2015. In particular, the question of reduction of 
violence is hugely important to him.
    In that regard, I think this raises the question of a 
reconciliation process, an Afghan-led and Afghan-owned 
reconciliation process.
    At the Heart of Asia conference in Islamabad last week, we 
held a trilateral meeting between the United States, Pakistan, 
and Afghanistan, at which we recommitted ourselves to an 
Afghan-led and Afghan-owned peace process during the remaining 
lull in the fighting season. That included, for the first time, 
commitment language that all parties who refuse to come to the 
table will be dealt with by all means available.
    So I think that we have to use the remaining time and the 
lull to work on getting an Afghan-led and Afghan-owned 
reconciliation process going. I think there was much more of a 
meeting of the minds between President Ghani and the Pakistani 
leadership on this issue then there has been in some time.
    Senator Perdue. So we are moving toward a negotiation? So 
there really is not a strategy being talked about, about how to 
defeat the Taliban? Is that what I hear?
    Ambassador Olson. To be very clear, I would not say that 
there is no strategy for fighting against the Taliban. I am 
just saying that that is not my particular piece of this 
puzzle.
    I think that a political settlement is an important 
element, and working toward a political settlement is an 
important element of our multidimensional approach to 
Afghanistan. It has been for some time. It has been at least 
since President Obama's Bagram speech of May 2012, and even 
before that. The reconciliation led by the Afghans is an 
important element of what we are trying to do.
    Senator Perdue. Can I ask you briefly, with the time 
remaining? The Iranian influence with the Taliban has grown 
this year, according to several reports. Can you speak to that? 
And what is the Afghan Government doing? And as a corollary to 
that, we know there has been outreach from Kabul to Moscow.
    From a State Department perspective, can you speak to both 
of those, Iranian support for the Taliban, the growth of ISIS, 
and then the third piece, the overtures that Afghanistan is 
making to Moscow?
    Ambassador Olson. Well, we have seen the reports with 
regard to the Iranian actions, of course. We do not understand 
why the Iranians would be involved with the Taliban. We do not 
think it is productive. And we think that all of Afghanistan's 
neighbors should commit to noninterference and respecting 
Afghanistan's territorial integrity.
    With regard to Russia, this is also a topic we have 
discussed with the Afghans. I met last week with my Russian 
counterpart in Islamabad. It was a preliminary meeting, but he 
pledged that Russia would engage constructively and continue to 
cooperate with us. I think we have to test that proposition, as 
we do all such propositions. But we will intend to work with 
the Russians where we can, consistent with our overall Russia 
policy.
    Senator Perdue. Thank you.
    Senator Cardin. Thank you, Senator.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    If you believe in the limits of American power as a 
catalyst for change abroad absent a local commitment to do so, 
the last 15 years in Afghanistan are, certainly, proof of that 
concept. You guys have really hard jobs, and I am glad that you 
are here briefing us.
    But, Ambassador Olson, you talked about this idea that we 
are prepared to hold Afghans accountable for their lack of 
progress on anticorruption efforts. With all due respect, I do 
not think there is any evidence to suggest that is actually 
true. I do not think, over the last 15 years, there is any 
evidence to suggest that the United States is willing to do 
things and send messages to the Afghans to telegraph that we 
are serious in any way, shape, or form about them getting 
serious about anticorruption efforts.
    We seem to have made an independent decision that we have 
national security interests at stake in Afghanistan, that we 
are going to commit the amount of resources necessary to stop 
Afghanistan from becoming a safe haven again for terrorists, 
and that we are going to prioritize that, which involves a 
significant amount of American resources there, with or without 
a commitment from the Afghan Government to sort their own mess 
out.
    So it seems to me, having gone to Afghanistan four times, 
five times, having heard the same story over and over again 
about how we were pressuring them to take on corruption, and 
how little progress we have seen, that we should just admit 
that our priority is actually not to encourage local political 
change. Our priority is to commit just enough resources to stop 
Afghanistan from once again becoming a safe haven for 
terrorists and admit that that is ultimately our number one 
priority. And it means that it often forces the secondary goal 
of local political change to become subverted to that first 
priority.
    I am sure you think I am wrong. But tell me why, for those 
of us have heard people tell us that we are going to start 
holding Afghans accountable for lack of progress on corruption, 
why any of us should believe that we are actually ever prepared 
to send the tough message to them necessary to get them to 
change.
    Ambassador Olson. Well, thank you, Senator. First of all, 
let me thank you for your kind words at the outset. We do have 
hard jobs, but they are important ones, and we are committed to 
following through on them.
    I think that one thing that is worth noting is the Tokyo 
conference in the summer of 2012 did establish this framework 
for mutual accountability between the donors and the Government 
of Afghanistan. I think from that movement forward, there has 
been greater conditionality on the part of not just American 
assistance but international community assistance.
    This is a recognition that in order for the government to 
have the legitimacy that it needs to carry out counterterrorism 
operations and establish security throughout the country, that 
it needs to address the perception of corruption. So I do not 
see the goal quite as much in contrast, perhaps, as you do.
    The other point is that I think there is a great 
willingness under this government, in particular under 
President Ghani, to actually address the issue of corruption. 
He recognizes the challenge that it represents for his 
administration.
    So I think in the overall interests of good governance, 
which is a hugely important part of counterinsurgency, that it 
is essential that we continue to apply conditionality on these 
issues.
    I would like to ask, if you agree, if my colleague, Mr. 
Sampler, has anything to add on this.
    Senator Murphy. Well, let me ask another question. You can 
maybe answer this one as well.
    Then I would be interested for you to articulate what you 
think has given the Taliban this political space in which to 
operate. If you read through the litany of progress that we 
absolutely have made on the number of Afghans who have access 
to schooling, to the number of homes that now have access to 
electricity, that should suggest a level of economic stability 
and economic opportunity that would give local populations 
faith in aligning themselves with local, regional, or federal 
governance. They are not doing that, which suggests that the 
political space is being created perhaps by a lack of faith in 
the legitimacy of government because of corruption.
    So it is sort of hard, again, from your perspective, from 
USAID's perspective, to hear all this progress we have made, 
but then to have no evidence that it is actually resulting in 
less support for the Taliban when you look at the breadth of 
their operations over the course of the year.
    So I guess I would be interested from your perspective in 
terms of what you think is giving the Taliban the political 
space, if you accept the notion that there has been a lot of 
progress made in terms of the programming that we have 
delivered.
    Ambassador Olson. Well, I have to say one of the challenges 
here is attempting to peer in from the outside and figure out 
what the Taliban motivations actually are and what the Taliban 
grievances are. I think our knowledge on this is, frankly, 
imperfect. I do think it is one of the reasons why it is 
important to have an Afghan-led and Afghan-owned reconciliation 
process going forward, so that these issues can be identified, 
and we can attempt to identify what some of the grievances may 
be.
    I would defer to Larry on questions of assistance.
    Mr. Sampler. Senator, thank you for the question.
    With respect to corruption, two observations, and then if 
you do not mind, I will answer the second question.
    The first is how personally President Ghani takes the 
corruption issue. Anecdotally, I have sat in the procurement 
commission meetings, which he personally chairs every Saturday 
night, and they are incredibly painful because President Ghani, 
based on his World Bank experience and has personal experience 
in Afghanistan, understands how pernicious corruption is, how 
hard it is to eradicate, and how it has to be, as the 
Ambassador said, a priority for his government. So at the macro 
level, he is personally and aggressively involved.
    At the micro level, he has been looking for technical 
solutions that will help him get a jumpstart on fighting 
corruption and generating revenue. The one example I will cite 
is USAID has been helping President Ghani with his customs 
collections. Much of the corruption at the customs border 
positions is face-to-face corruption where a truck driver is 
approached and extorted for money, not once or twice but, in 
some cases, as many as six times, by individuals saying that 
they represent the government and taking money. By allowing 
them to do their customs payments electronically, the face-to-
face engagements are no longer necessary.
    President Ghani expects both to reduce corruption at the 
customs houses and increase revenues. We have early indications 
on the three customs border positions where they have 
instituted electronic transfers that they have, in fact, 
increased the customs collections at those three border 
crossings.
    So the problem has not gone away by any stretch of the 
imagination. But with the election of President Ghani and CEO 
of Abdullah, there is a new commitment, I would argue, and they 
have demonstrated that to us it to me.
    To your point about political space, with all due respect, 
I would describe it differently. The Asia Foundation has done a 
survey of the Afghan population that does not show any increase 
in the popularity of the Taliban at all. In fact, they are less 
popular than ever before.
    But by use of force, the Taliban forces themselves 
physically into spaces where they are not welcome. The Afghan 
population at the individual family level has learned over 
decades of combat how to survive. It may be that it is in their 
best interests, or they perceive it to be in their best 
interests at the moment, to acquiesce to the Taliban control of 
their area.
    But I am fairly confident, and I will actually yield to Ali 
Jalali. It is good you have an actual Afghan here today to talk 
about how Afghans see these problems.
    I do not necessarily think they have taken advantage of 
political space. They have taken advantage of the government's 
inability to project force effectively to every corner of the 
country at the same time.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Senator Barrasso?
    Senator Barrasso. Thank you, Mr. Chairman.
    Ambassador Olson, I want to talk a little bit about what is 
happening with ISIS. You were just in Afghanistan last week. I 
was there for Thanksgiving, up in northern Afghanistan, and 
hearing more and more about the spread of ISIS across the 
Middle East. It is obviously a serious concern to us in regard 
to national security.
    Yesterday, the Department of Defense warned about the 
growth of ISIS in Afghanistan. The report from the Department 
of Defense stated that ISIS ``has progressed from its initial 
exploratory phase to a point where they are openly fighting the 
Taliban for establishment of a safe haven and are becoming more 
operationally active.''
    It went on to say that ISIS has claimed responsibility for 
the IED attacks against United Nations vehicles, attacks 
against 10 checkpoints. In September when I was in Kabul, as 
you know, they are not taking vehicles back and forth to the 
Embassy. Things are now by helicopter, because of this 
increased concern.
    Can you talk about the best estimates on the number of ISIS 
fighters in Afghanistan?
    Ambassador Olson. Thank you, Senator.
    I will have to get back to you on a number on our estimate. 
I do not have that with me today.
    We are aware of the emergence of Daesh in Nangarhar 
province, in particular. This is something that we have had as 
a part of our ongoing dialogue, not just with Afghanistan but 
also with Pakistan. We take very seriously the potential 
emergence of Daesh in Afghanistan and Pakistan.
    That said, our understanding of the dynamic right now is 
that, in fact, these are disaffected Taliban factions and 
commanders who have switched allegiance to Daesh. That is not 
to underestimate the danger that this represents, but it is 
also to suggest that there is not necessarily a direct linkage 
and flow of material or fighters from the Middle East to the 
Afghanistan-Pakistan region.
    So far, Daesh has been confined to the southern districts 
of Nangarhar. We will continue to work with Afghanistan and 
Pakistan, to the extent that we can work with them jointly, to 
ensure that they are responding to this emerging threat.
    Senator Barrasso. I wonder if you can help us because I 
heard the same thing when I was there, and I asked some of 
these questions. It was the same thing, that some of these are 
disaffected Taliban members heading over to ISIS.
    The issue of pay came up. Can you talk a little bit about 
how different people are paid differently in Afghanistan? The 
pecking order seemed to be that ISIS was getting the most 
money, the people who were willing to fight for ISIS. Then the 
next level down from there was the Taliban. The level below 
that was the Afghan army. The level below that were the Afghan 
police.
    So for people who are focused on the monetary aspects of 
this, there was actually a pecking order of which side you were 
on and how much you got paid.
    Ambassador Olson. I have heard these stories as well about 
the relative pay. These are questions that I think need to be 
seriously addressed.
    One of the questions, of course, that we will be addressing 
at the international level in Warsaw in July is continuing 
sustainment of the Afghan National Defense and Security Forces. 
I also think it highlights the continued importance of dealing 
with the financing of these organizations.
    Senator Barrasso. Do you see any evidence that either 
Taliban or ISIS is interested in actually governing 
Afghanistan? Or do they simply want to be left alone in their 
own safe havens? Or create more problems?
    Ambassador Olson. The Taliban?
    Senator Barrasso. Yes.
    Ambassador Olson. Their rhetoric certainly suggests that 
they intend to try to once again rule Afghanistan as they did 
during the 1990s. Of course, they call themselves the Islamic 
Emirate of Afghanistan.
    So we have seen, including in the preliminary talks that 
took place in Murree in July, that the Taliban does, indeed, 
assert national aspirations. But perhaps it is not surprising 
that they would do so.
    Senator Barrasso. In terms of troop level, and Senator 
Perdue asked specifically about the troop level of the 9,800 
troops currently in until the end of 2016. Originally, it was 
only about 1,000 troops by the end of 2016.
    Given the current security situation and increased 
violence, does the State Department believe that the United 
States should go down to 5,500 troops after 2016 or 1,000? What 
are your thoughts on the numbers?
    Ambassador Olson. Well, as the President has announced, we 
will have 9,800 troops through most of 2016, through the bulk 
of the fighting season. We believe that the commitment of the 
5,500 for the period beyond is important for the continued 
train-and-assist missions, the continuing CT mission in 
Afghanistan. I think it also sends an important regional 
signal, a signal that the United States remains engaged and 
committed in the region.
    I think it also sends an important signal to the Taliban, 
which will be helpful as part of a reconciliation process.
    Senator Barrasso. And just a final question. Can you just 
give me your assessment of the Afghan National Security Forces?
    Ambassador Olson. The Afghan National Security Forces, the 
National Defense and Security Forces, have faced great 
challenges over the course of last year. They have, however, 
shown a marked willingness to fight.
    They continue to need support in logistics, sustainment, 
all of the enablers that actually make an army able to fight. 
In other words, they need some of the Ministry of Defense 
functions. In that regard, it would be helpful to have a 
Minister of Defense.
    Senator Barrasso. Thank you, Mr. Ambassador.
    Thank you, Mr. Chairman.
    The Chairman. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    And thank you to the witnesses. It is a very, very 
challenging service.
    And I appreciated, Mr. Sampler, your going into some of the 
metrics of improved quality of life in Afghanistan that have 
been achieved with a tremendous amount of work by Americans and 
coalition partners.
    I especially appreciated that you acknowledged the service 
of our troops but also of all the civilians, USAID, NGOs. I 
mean, it has been a comprehensive effort. Things like the life 
expectancy expansion are nearly revolutionary, if you look at 
what that has meant to Afghanistan.
    But I know we all want that progress to not be a temporary 
phenomenon and to continue. That is why we are here.
    One of the things that troubles me, I think the chairman in 
his opening comments talked about the divergence between what 
we often hear about Afghanistan in classified and unclassified 
settings. I had an opportunity yesterday to be with others in a 
classified setting on Afghanistan.
    I was struck by the divergence between different classified 
settings I go to, and, in particular, the divergence between 
classified information conveyed by folks in the intel community 
versus classified information conveyed by folks in the armed 
services community. I am on the Armed Services Committee, too.
    I think a little bit of tension between the intel community 
approach and the armed services approach is not that unusual. 
But I will say, and I have only been here 3 years, but in 3 
years here, I have never heard as broad of a divergence. And I 
do not even really think I can say the issues without 
jeopardizing what may be classified. But I do not think I have 
heard as broad of a divergence between classified accounts 
between the intel community and the armed services community in 
any other instance except current status of a number of issues, 
really important, really fundamental, really critical issues, 
about the state of affairs in Afghanistan. It is very, very 
troubling.
    Let me ask you a couple questions. You each have joint 
billets with Afghanistan and Pakistan. I am really interested 
in your thoughts about the current Afghanistan and Pakistan 
relationship. It does not have to be from a classified 
briefing. We know from public accounting of Taliban activity in 
Pakistan that Taliban have used Pakistan as a safe haven over 
time, and there is a very important degree to which Pakistan's 
cooperation with Afghanistan and vice versa is critical to 
stability in Afghanistan.
    What is your current perception, from each of your 
respective roles, about the degree of cooperation between the 
Afghan and Pakistan governments, especially when it comes to 
these issues of security and the counterterrorism effort?
    Ambassador Olson. Thank you, Senator Kaine.
    I am just coming out of 3 years in Pakistan. I can assure 
you that this has been at the center of our dialogue with 
Pakistanis. I think it is safe to say there was no conversation 
that I had with the security establishment in Pakistan that did 
not include a very direct, very frank discussion about 
specifically the Haqqani network, but the Taliban in general. 
We will continue to have those very frank discussions.
    The Pakistanis have taken action against the TTP. They 
launched Operation Zarb-e-Azb in June 2014 and have largely 
cleared North Waziristan Agency, which was a longstanding 
objective for us to get their sovereign authority reestablished 
over all of their territory.
    But they have focused more on the TTP, the Pakistani 
Taliban, than they have on external terrorist actors, that is 
to say, actors that threaten their neighbors, whether 
Afghanistan or India.
    So we will have to continue to push them on these 
particular points.
    That said, I think there is a recognition in Pakistan that 
there has been bleed over between the Pakistani Taliban and the 
Afghan Taliban. It is not so clear that even if they wanted to 
distinguish between good and bad anymore that they can. I think 
that creates an opportunity that we will want to pursue as much 
as possible.
    Moving just quickly to the state of Afghanistan-Pakistan 
relations, we feel that last week was actually fairly 
significant. President Ghani went to the Heart of Asia 
conference. Prime Minister Sharif committed to respecting 
Afghanistan's sovereignty, territorial integrity, respect for 
the government and its constitution, which was important 
language for the Afghans.
    In the trilateral session that we conducted, they committed 
to resuming a peace process as soon as possible and to using 
all available means against those members of the Taliban who do 
not join the peace process.
    So I think although there is a long history of tension 
between Afghanistan and Pakistan, I think that, after last 
week, we feel that relations are at least somewhat improved.
    Senator Kaine. Please, Mr. Sampler. Then I have one more 
question.
    Mr. Sampler. Senator, thank you. With respect to 
demonstrated collaboration and cooperation between Afghanistan 
and Pakistan, and I would add the other nations in the region, 
recently, CASA 1000 was signed. That is an energy corridor 
running from Central Asia all the way down through Afghanistan 
and Pakistan. That has enormous consequences, positive 
consequences for all the member countries.
    They also just this past week have broken ground on TAPI, 
which is a Turkmenistan, Afghanistan, Pakistan, India energy 
corridor, which will also have connective resonance for 
countries in the region.
    I think this is one of those places where the security 
focus and the commerce focus are going to overlap. To the 
degree that we can get the countries in this part of the region 
working together on economic growth, they have skin in the game 
to provide stability and vice versa. They have to provide 
stability in order to see the economic growth.
    There has also been an increase in cross-border trade with 
respect to things as simple as fruits and nuts. Afghanistan is 
expecting in 2015 to see $36 million worth of their produce 
being shipped abroad largely to Pakistan. So it is there.
    I would like to add, I very much appreciate your 
observations about the divergent opinions of the different 
communities with respect to observing places like Afghanistan. 
I will share what I was told as a young soldier when I was 
first exposed to classified information. I was told information 
is not classified because it is more correct than other 
information and other perceptions. It is classified because of 
how it was collected.
    What I get from my implementing partners on the ground in 
Afghanistan is that the Afghanistan they see and touch and live 
in every day differs depending on which province and which 
district they are in. In some provinces, they would absolutely 
agree with the intelligence community's fairly dire estimates. 
But in others, they are actually making progress on value 
chains, on exports, on being able to educate sons and 
daughters.
    So it is not, in my humble opinion, as simple as it is 
sometimes portrayed. But I very much appreciate you defining 
that.
    Senator Kaine. Thank you.
    The Chairman. Thank you.
    Senator Udall?
    Senator Udall. Thank you, Mr. Chairman.
    And thank you both for your service to the country. We 
really appreciate all the hard work in what are very, very 
difficult circumstances.
    Ambassador Olson, you mention in your opening statement 
that the administration remains committed to a stable and 
secure Afghanistan, and we remain convinced that a negotiated 
settlement between the Government of Afghanistan and the 
Taliban is the surest way to end the conflict.
    I have the same impression that Senator Kaine does, I am 
not on the Armed Services Committee, but that there is a very 
stark difference here between some of the intelligence.
    But that aside, let me ask, if we are wanting to get them 
to the peace table in this Afghan-led peace process, does the 
Taliban not have to be at a point in their situation in the 
conflict where they feel there is a reason for them to come to 
the table? Looking at it, from my perspective, your testimony 
and others here, they are resurgent. They are doing better. 
They are capturing cities. They are releasing people from 
prisons. They are making major gains. And we are drawing down 
our forces.
    Convince me that they really want, in good faith, to come 
to the table. The question is addressed to both of you.
    Ambassador Olson. Senator Udall, thank you so much. That is 
a very thoughtful question.
    It strikes me that there are a couple things that give us 
some leverage in this situation.
    First of all, the Taliban do seem to desire some degree of 
international political legitimacy. They recognize, apparently, 
and I will say at the outset that I think we have to be 
cautious about what we know about the Taliban and what we 
presume, but it does appear that, as result of their historical 
experience when they were governing in the 1990s and were 
isolated and cut off from the outside world, and Afghanistan is 
a country that has always been reliant to some extent on 
external assistance, I think that they look to international 
legitimacy as an important objective.
    The only way that that could be achieved is through some 
kind of political settlement.
    The second element is what I alluded to before, which is 
the question of pressure. I think it is significant in this 
regard that we have the language coming out of the trilateral 
statement last week in Islamabad talking about the use of all 
available means against those who are not prepared to 
reconcile.
    Senator Udall. Mr. Sampler, do you have any comment on the 
sides of this from your perspective, from AID, that indicate to 
you that there is a real sincere effort on the part of the 
Taliban to be a part of a peace process?
    Mr. Sampler. The only observation I would be able to make 
is that in order to be a player in the economic growth that we 
hope will occur in that part of the world, as the Ambassador 
said, they would have to be a legitimate partner and a 
legitimate player. They are in no way considered legitimate at 
this point.
    That is a very indirect measure, but that is the only input 
I would have.
    Senator Udall. As you talk about economic development, 
security has affected Afghanistan's economic--I am trying to 
probe now on their economic outlook. What is the status of some 
of the major mining, energy, and other capital projects that 
investors such as China and India have subscribed to? What 
projects are underway in producing revenue, if any? Which 
projects are stalled? And why are they stalled?
    You talked about the exports to Pakistan. I am talking 
about these bigger projects that you are aware of, I am sure.
    Mr. Sampler. Certainly. One of the things that encourages 
me about President Ghani's cabinet is that he has brought in 
typically younger, very technocratic ministers.
    Since you asked about mining, I will use the Minister of 
Mines and Petroleum as an example. The Minister Saba showed up 
at that ministry and told me he had 390 vacant civil service 
positions. I said, how many of you filled? He said there are 
about 20 that are filled but 390 are vacated.
    So the ministry was very much a Potemkin ministry. It had 
strength at the top, but there was nothing behind it.
    With this ministry, he was expected to pursue fair, open, 
and transparent procurements for mineral rights, for gas 
rights, and for exports of the same.
    What he has done is he has filled about half the vacancies 
at this point in time. He has moved forward on a gas pipeline 
in the north of Afghanistan that for 12 years prior had not 
been moved on. He has identified some very low-hanging fruit in 
not the most lucrative mining sectors, to be honest.
    Talc powder is not considered sexy or lucrative, but it is 
an area where he believes the state will be able to exercise a 
monopoly and collect taxes and tariffs on the mining of talc.
    Another is lapis lazuli, which are the precious minerals 
found only in Afghanistan.
    So they are focused on finding ways to achieve quick 
results, but these are not things that are typically done 
quickly. The U.S. interest has been the ministry build capacity 
to do it equitably and transparently. I think President Ghani's 
ministers are focused on doing that.
    Senator Udall. Thank you.
    Please, Ambassador?
    Ambassador Olson. Senator, I would just add to what my 
colleague Larry had mentioned before, which is the forward 
movement on both TAPI, the pipeline, Turkmenistan, Afghanistan, 
Pakistan and India pipeline, which is a project that has been 
in fruition for something like nearly 30 years and is now much 
closer to actually moving forward. That is quite significant.
    The other is CASA 1000, which does not have as quite a 
venerable history but has been around for a while. The power 
purchasing agreement was just signed within the last week, so I 
think those are positive indicators.
    Senator Udall. Our India or China involved in either one of 
those?
    Ambassador Olson. The ultimate concept for TAPI is that it 
would go on to Pakistan and India. I believe that the latest 
agreement is between Turkmenistan and Afghanistan, so there are 
still some negotiations to be done, but the indication is very 
positive.
    Mr. Sampler. A non sequitur, but I would be remiss if I did 
not note that tomorrow in Nairobi, Afghanistan will be accepted 
into the World Trade Organization. It is in and of itself an 
accomplishment, and it has been several years in the making. 
But it begins a very difficult journey for Afghanistan to make 
the kinds of procedural and legal adjustments that they have to 
make in order for the kinds of programs you are describing to 
be both productive in the short run and sustainable.
    Senator Udall. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Isakson?
    Senator Isakson. Thank you, Mr. Chairman. I apologize. I 
had to go in and out, so I missed some of the questions. I may 
be redundant, and I apologize for that.
    Mr. Sampler, did you serve at USAID when we were in Iraq?
    Mr. Sampler. Yes, sir, I did.
    Senator Isakson. Were you ever part of the Provincial 
Reconstruction Teams or that effort that took place?
    Mr. Sampler. Was I ever what?
    Senator Isakson. Were you ever part of the Provincial 
Reconstruction Teams?
    Mr. Sampler. No, sir. I served in Baghdad.
    Senator Isakson. You served in Baghdad.
    Mr. Olson, were you involved when we were involved in Iraq?
    Ambassador Olson. Yes, Senator. I served in Iraq from 
December 2003 to March 2004 in a government team in Najaf, 
Iraq, which was a predecessor to the PRTs.
    Senator Isakson. Correct me if I am wrong, but my 
recollection of our--and the title of this hearing is ``The 
Administration Strategy in Afghanistan,'' but I want to reflect 
back to Iraq for a second and my experience there.
    Our strategy in Iraq obviously was to stabilize the country 
through the use of soft power and things like USAID and 
Provincial Reconstruction Teams to win the people over, leave 
enough of a residual force to have security in the country, 
hopefully win them over to be an independent, free democracy in 
a very dangerous part of the world.
    Was that about right to describe our strategy?
    Ambassador Olson. Yes. I do not have responsibility for 
Iraq right now.
    Senator Isakson. It is not a trick question. Feel free to 
correct me, if I am wrong. I am trying to get to a point.
    Ambassador Olson. Yes.
    Senator Isakson. What worries me, I read General Campbell's 
statements about the growth of ISIL, and the growth and 
strength of the Taliban, and reflected back to Iraq. I walked 
in the streets of Gazaria with a U.S. rifle company that was 
handing out microloans, and we are helping small businesses 
grow through the PRTs. We really were winning the country over, 
and then we left. Our military presence left, and ISIL came in.
    Now I know the President has decided to leave 5,000, I 
believe that is the right number, troops in Afghanistan. Is 
that not correct? Is that enough to prevent what happened in 
Iraq from happening again in Afghanistan, where there is so 
little protection that we cannot let the soft power we want to 
use to win the people over actually take hold in terms of our 
strategy? That is the question I am getting to.
    Ambassador Olson. Thank you, Senator.
    I think there are some important differences between 
Afghanistan and Iraq. I would highlight a couple of them.
    One is that we do have a bilateral security agreement with 
Afghanistan, and that is what allowed the President to make the 
decision he did to allow troops to stay longer in Afghanistan. 
Of course, we did not have that in Iraq.
    I think it is also fair to say, for all the challenges that 
the Government of National Unity faces in Afghanistan, it is a 
more inclusive government and brings together more elements of 
the population.
    So I do not think you have the situation where there is one 
particular ethnic group in Afghanistan that is feeling 
marginalized as a group. Obviously, it is a complex ethnic 
situation, but the political differences tend to cleave across 
sectarian lines rather than in alignment with sectarian lines.
    I think that is probably the most important point I would 
make. This is, of course, a very soft subject, and it is 
probably more impressionistic than anything you can reduce to a 
metric. But there is a very definite sense of Afghan 
nationalism that all Afghans or most Afghans subscribe to.
    The country does not have a tradition--let me not overstate 
this. There is not as much of a tradition of sectarianism, 
ethnic and religious sectarianism, in the country. And there is 
a very strong sense of national identity and history, which 
helps to bring people together.
    That means the conflict is more about who is going to run 
the place than whether the place is going to fall apart.
    Senator Isakson. I really appreciate that answer. This is 
an observation I will make where I maybe also will be very 
wrong.
    But the reason Afghanistan has been at war for 300 years is 
because of that strong sense of national unity. They want to be 
in control of their own destiny and fought whoever tried to 
control them. Is that correct?
    Ambassador Olson. Yes, Afghan history is a complex subject.
    Senator Isakson. National unity is one of the contributing 
factors, is it not?
    Ambassador Olson. Well, there is a very strong sense of 
nationalism, which has been mobilized against foreigners at 
various times.
    I think it is worth noting in that regard that over the 
past 14 years, the Afghan people have been remarkably welcoming 
of our forces. I think they are more welcome than any 
predecessor foreign forces in Afghanistan's history, and that 
is a remarkable achievement, with credit to our Armed Forces, 
by the way.
    Senator Isakson. Thanks to both of you for your service, 
and thank you for answering the questions.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    I know we are about to close out and we have another panel.
    Just out of curiosity, to follow up a little bit on Senator 
Kaine's comments about the diverging views, I will say, for 
what it is worth--I had a private meeting with you, Ambassador 
Olson. We had the classified briefing. For what it is worth, 
while you obviously speak in a more statesmanlike manner, the 
views of what is happening in Afghanistan were very aligned. I 
mean, the meeting we had in our office, the classified briefing 
yesterday, was very much aligned. I mean, we have some issues 
we need to deal with.
    Why do you think there is that divergent view on the other 
side that takes place? I know that you work closely with our 
armed services. How could it be, as involved as you are there, 
both of you, that we have an alignment over here at the State 
Department with our intelligence, but a disalignment, if you 
will, over on the other sectors?
    Ambassador Olson. All I can say, Senator, is that we really 
do try, particularly in the AfPak arena, where I have been 
working for the last 4 years, to bring about a whole-of-
government approach, not just in terms of our operations and 
what we are trying to do, but also in our assessments.
    It is evident to me from your comments today that we have 
some work to do in that regard. We probably owe you some better 
alignment on how we are thinking.
    The Chairman. I actually found alignments we had yesterday 
to be very good.
    The Taliban issue, now obviously we came into Afghanistan 
in 2001. The issue was to end the Taliban's existence and 
dominion over government at the time. Now they are changing the 
facts on the ground. Is that fair?
    Ambassador Olson. To some extent. I do not think we know 
yet how much those facts on the ground have actually been 
changed.
    The Chairman. And there are discussions about, over time, 
we have made some accommodating comments publicly, our 
government has, relative to their potential involvement in the 
government down the road. Is that fair to say?
    Ambassador Olson. We have committed to an Afghan-led, 
Afghan-owned reconciliation process. But the terms of the kind 
of political settlement that you are talking about would have 
to be something that is led by the Afghans. That is not for us 
to determine and not to determine in advance.
    The Chairman. And I know that I was stepping in and out, 
and I greatly apologize for that. My understanding is a 
statement was made that, at present, they are not exhibiting 
the characteristics that would be appropriate for them to be a 
part of that. Is that correct?
    Ambassador Olson. I believe my colleague, Larry Sampler, 
made that comment, with which I would fully agree. The point 
was, I think the Taliban does seek a degree of international 
legitimacy. This may be one of the reasons that they have been 
willing to come to the table, at least at Murree in July of 
last year.
    But they have a long way to go before they would in any way 
be considered legitimate.
    I think for us, we have been careful not to establish 
preconditions for negotiations. But we support the Afghan end 
conditions, which are renunciation of violence; acceptance of 
the constitution, including its provisions related to women and 
minorities; and a complete break with international terrorism, 
especially Al Qaeda. Those are the end conditions of the 
negotiating process.
    The Chairman. So that is the end state that the Afghan 
Government is working toward. I think it is good that we have 
not established preconditions ourselves.
    What would be, though, the characteristics, the Taliban 
would need to exhibit from your standpoint to be a legitimate 
entity for the Afghan Government to begin negotiations with?
    Ambassador Olson. I think we would not want to establish 
preconditions for----
    The Chairman. Yes. Your observation would be?
    Ambassador Olson. I think what is important is that, at the 
end of the negotiating process, those three outcomes are 
guaranteed. That is what we seek, a process that generates 
those three outcomes.
    The Chairman. And do you think, based on what you know, the 
Taliban has the capacity to reject terrorism and violence?
    Ambassador Olson. It is always very difficult, and I am 
always very cautious, about what we think the Taliban is 
thinking. It is a very fraught subject. It is one of the 
reasons that a negotiating process would help to bring some of 
this out.
    But there have been some indications in some of the 
statements that were issued in Mullah Omar's name it turns 
out--we thought, at the time, they may have been issued by 
Mullah Omar--that suggest some movement on some of these 
issues. But whether that is actually something they would be 
prepared to do only can be determined through a negotiating 
process.
    The Chairman. A couple more just brief questions.
    We had a decent meeting with the Prime Minister of Pakistan 
and their military leadership. They gave us strongly worded 
statements about the ISI involvement and how 1,000 percent they 
are committed to dealing with the Taliban, dealing with other 
groups that are housed in the FATA region and, certainly, 
ensuring that they did everything they could to make sure that 
Afghanistan was stabilized.
    On the other hand, I get a strong sense that is maybe not 
100 percent accurate. They are watching what is happening on 
the ground. They want to have the proper relationship, if you 
will, with the ultimate leadership group that exists in 
Afghanistan. What they are seeing right now is a situation 
where they are not sure what that outcome is going to be.
    My sense is that instead of them actually carrying out what 
they said here in our presence, that they are hedging their 
bets. They are trying to calculate, if you will, what 
Afghanistan is going to be over time.
    Right now, we have 9,800 troops ourselves in Afghanistan. 
There has been a sort of arbitrary date of numbers of troops 
that will be there over the course of this next year, I think 
dropping down to about 5,000.
    But it seems to me that we have our hands full as is, that 
it is incredibly difficult for us to keep violence down and 
stability in place at present.
    Just out of curiosity, does that raise questions to you as 
to when we need to be deciding ultimately what our security 
force totals are going to be in Afghanistan?
    Ambassador Olson. If I could start, Senator, with the first 
piece on Pakistan, first of all, Pakistan has moved in a 
significant way on its own terrorism threat. It has largely 
cleaned out North Waziristan Agency, something we had long 
desired. It has reestablished control over most of North 
Waziristan.
    I think there is increasingly a recognition on the part of 
the Government of Pakistan that there is significant bleed-over 
between the Pakistani Taliban and the Afghan Taliban, and that 
it is no longer so simple for them as it may have been in the 
past, even if they in principle agree to distinguish between 
good and bad Taliban.
    The other important point is I think they recognize the 
outreach that President Ghani has made to Pakistan and 
recognize that this is a historic opportunity. They would like 
to seize on that. That is why we think that there is, among 
several reasons, that there is a possibility for moving forward 
on a reconciliation process now, because there is a greater 
degree of alignment on these issues between Afghanistan and 
Pakistan than there has been for some time in the past.
    The Chairman. What about the second part of the question?
    Ambassador Olson. Well, the second part, sir, the 
President's decision is to go to the 5,500 troops after the end 
of 2016. I think it will be for the next administration to 
determine what troop levels it wants to----
    The Chairman. I have no desire, out of respect to you--you 
and I may have traveled together to the Waziristans, if I 
remember correctly.
    Ambassador Olson. We did, sir.
    The Chairman. I do not want in any way try to create a 
divergence between you and the administration. But let us just 
say at present, things could change, certainly, between now and 
the end of the year.
    Our security forces have their hands full in working with 
the Afghan military to try to create a secure environment. Is 
that correct?
    Ambassador Olson. Yes, they have a challenging assignment. 
But I have talked to my colleague and friend, General Campbell, 
and he is confident that he has what he needs at the moment.
    The Chairman. At the moment.
    Listen, I certainly appreciate your service. I appreciated 
your candor yesterday in our office. I appreciate the service 
you provided in multiple settings.
    Certainly, you all have been helpful to us today. I do 
think that it would be fair to say, based on the entirety of 
yesterday, today, just other interactions we have, we should 
all be very concerned about outcomes in Afghanistan and 
understand that tremendous diligence and effort is still 
necessary, and leadership on their part, to cause a successful 
outcome to occur.
    Would you agree?
    Ambassador Olson. I think we all face a lot of challenges, 
sir, absolutely.
    The Chairman. Thank you, both. I appreciate it.
    We will now ask the second panel to take their place. We 
thank all of you for being here.
    Our first witness today will be the former U.S. Ambassador 
to Afghanistan, James Cunningham, someone we all know well, now 
a senior fellow and the Khalilzad Chair on Afghanistan at the 
South Asia Center of the Atlantic Council.
    We thank you for being here.
    The second witness will be former Afghan Minister Mr. Ali 
Jalali.
    Thank you so much for being here. We all know you also.
    He is now a distinguished professor at the Near East and 
South Asia Center for Strategic Studies at the National Defense 
University.
    Our third witness will be Jodi Vittori, a senior policy 
adviser at Global Witness, who has also served in the U.S. 
military in Afghanistan--we thank you for that service--and in 
countering corruption in the defense and security sector, which 
I know there is a big job.
    So we thank you all for being here. We think this is a very 
distinguished panel. If you could keep your comments to around 
5 minutes, without objection, your written testimony will be 
entered into the record.
    If we could, we can go in the order of introduction, 
starting with you, Ambassador Cunningham.

 STATEMENT OF JAMES CUNNINGHAM, SENIOR FELLOW, THE SOUTH ASIA 
   CENTER, KHALILZAD CHAIR ON AFGHANISTAN, ATLANTIC COUNCIL, 
                        WASHINGTON, D.C.

    Ambassador Cunningham. Thank you very much, Mr. Chairman. 
It is good to see you again. Senator Cardin, members of the 
committee, I am honored to testify today on U.S. strategy in 
Afghanistan. I appreciate this opportunity to address why 
continued U.S. engagement in Afghanistan is so important, and 
to place our efforts there in the context of the challenge we 
face from the extreme distorted Islamic ideology, which 
threatens our citizens, our values, and our way of life.
    Rather than submit a statement for the record, I would 
refer the committee to the recent Atlantic Council paper on 
Afghanistan and U.S. Security, of which I was the principal 
author. Cosigned by 28 former senior U.S. Government officials 
of both parties and prominent policy experts, and with Senators 
McCain and Jack Reed as honorary cosponsors, the paper 
registers bipartisan agreement that Afghanistan matters to 
America's security, has a way forward to success despite all 
the challenges, merits the continued U.S. engagement required 
to protect American interests, and should be seen in the 
context of the broader terrorist threat.

    [The document referred to above can be found at the end of 
this hearing, beginning on page 64.]

    Inter alia, we argue to maintain U.S. coalition military 
forces and intelligence assets at close to current levels and 
to leave options open for the next American President.
    Twenty-fourteen and 2015 were years of great political, 
security, and economic transition and uncertainty for 
Afghanistan. With clarity about long-term U.S. engagement, 
there is now the opportunity to turn that around. I applaud 
President Obama's decision to maintain the U.S. military 
presence in Afghanistan through 2016 and beyond.
    This is a critically important strategic indicator of U.S. 
commitment to Afghanistan's security and success. It provides 
clarity for Afghans, the Taliban, and the region that there 
will be a significant U.S. military role in the future with no 
deadline. I wish such clarity had been provided several years 
ago.
    It is critical to the confidence of Afghans that they can 
succeed and to demonstrating to the Taliban that they cannot. 
Clarity that the Afghan project will not fail, that Afghanistan 
will not collapse under Taliban pressure and terror, will be 
crucial to the prospects for Afghan confidence, continued 
success, and ultimately for peace.
    Preserving that clarity is, in fact, the priority strategic 
goal. It must be clear that there is in no space in Afghanistan 
for Al Qaeda and Daesh to flourish, nor a place for the 
Taliban, absent a political settlement.
    With today's increased levels of violence and the evolution 
of new threats, the administration should revisit whether the 
U.S. security strategy formulated several years ago is adequate 
to today's task. The Afghan security forces are doing the 
fighting. They will continue to improve. Any further reduction 
in international forces must be commensurate with ANSF 
capabilities. And critical gaps in the close air support, 
intelligence, and logistics must continue to close and not 
widen. The development of Afghanistan's own air capabilities, 
including the sustainment of their own helicopters, must be a 
priority.
    In this new context of clarity of U.S. commitment, we 
should explore a genuine regional effort to strengthen 
Afghanistan and promote peace. There were hopeful signs, as we 
heard earlier, at last week's meeting at the Heart of Asia 
Process in Islamabad.
    After the setbacks of last summer, President Ghani deserves 
credit for renewing the effort to open doors with Pakistan. The 
test will be whether Pakistan takes concrete actions not only 
to support reconciliation but to reduce the ability of the 
Taliban and the Haqqani network to plan and launch operations 
from Pakistan, which greatly diminishes the prospects for real 
negotiations.
    The crucial tasks ahead for Afghanistan are exceedingly 
difficult: improving security, creating conditions for peace, 
building the economy, strengthening the government, forging 
Afghan political unity. For Afghanistan to succeed, two 
mutually reinforcing processes must be continued.
    First, it must be clear that adequate levels of 
international military, financial, and political support are 
available so that Afghans will have the time to build on 
progress made and to continue to take responsibility for their 
own affairs.
    Second, the National Unity Government needs to perform and 
to demonstrate achievement to the Afghan people and the 
international community. The government has advanced an 
ambitious reform program and is struggling to implement it.
    The new Jobs for Peace Program is an effort with security 
and economic implications to provide work as the economy 
develops. The challenges are considerable, but Afghanistan's 
political class must understand that the opportunity today 
afforded Afghanistan is unique and must not be squandered if 
Afghanistan is to be seen as worthy of continued international 
support.
    The challenge to our security in Afghanistan is one part of 
the long-term threat much of the world, not just the West, 
faces from terrorism rooted in violent extremism, recently 
highlighted by attacks in Egypt, Turkey, Lebanon, Paris, 
California, Mali, and elsewhere. The goal remains to prevent 
and to help Afghans prevent Afghanistan from becoming again a 
platform for those who threaten us.
    We have tended to dismiss the Daesh presence in Afghanistan 
as rebranded Taliban, as if that made it less dangerous. We 
have seen in Libya that such indigenous affiliates eventually 
control ground and connect with the center in Syria.
    In Afghanistan, we have a strategy that can work with a 
willing Islamic partner in the fight against terror. With the 
clarity of international commitment, Afghanistan can 
increasingly become a contributor to security. We must not now 
lose sight of Afghanistan as we did before, after the expulsion 
but not the defeat of the Taliban.
    Our efforts there must be long term and in concert with the 
need for the United States to help develop and implement a 
generational strategy to defend our people and values, while 
draining the life from the distorted version of Islam that 
animates Daesh, Al Qaeda, and others.
    Experience teaches that ideology cannot be defeated 
militarily, although military force must be an instrument. The 
defeat of violent Islamic extremism can ultimately come only 
from within the Islamic world, which must play a leading role 
as part of a multilateral, multifaceted effort.
    This is the context in which our future work in Afghanistan 
and the region must be seen. The success of Afghanistan is part 
of this larger struggle which the civilized world, including 
more than 1.5 billion peace-loving Muslims, must win.
    The instruments we have used in the past are strategies for 
dealing with state-to-state conflict. Our leadership patterns, 
the discourse with our publics, have not kept pace fully with 
the terrorist threats as they are evolving today and that will 
exist tomorrow.
    In short, the United States and its partners have much 
serious work to do, and Afghanistan must to be part of that 
effort. Thank you, sir.
    [The prepared statement of Ambassador Cunningham follows:]


          Prepared Statement of Ambassador James B. Cunningham

    Thank you Mr. Chairman, Senator Cardin, Members of the Committee, I 
am honored to testify today on U.S. strategy in Afghanistan. I 
appreciate this opportunity to address why continued U.S. engagement in 
Afghanistan is so important, and to place our efforts there in the 
context of the challenge we face from the extreme, distorted Islamic 
ideology which threatens our citizens, our values and our way of life.
    Rather than submit a statement for the record, I would refer the 
Committee to the recent Atlantic Council paper on Afghanistan and U.S. 
Security, of which I was the principal author. Co-signed by 28 former 
senior U.S. government officials of both parties and prominent policy 
experts, and with Senators McCain and Reed as honorary co-sponsors, the 
paper registers bi-partisan agreement that Afghanistan matters to 
America's security, has a way forward to success despite all the 
challenges, merits the continued U.S. engagement required to protect 
American interests, and should be seen in the context of the broader 
terrorist threat. Inter alia, we argued to maintain U.S. and coalition 
military forces and intelligence assets at close-to-current levels and 
to leave options open for the next American president.
    We know that 2014 and 2015 were years of great political, security, 
and economic transition and uncertainty for Afghanistan. With clarity 
about long term U.S. engagement, there is now the opportunity to turn 
that around. applaud President Obama's decision to maintain the U.S. 
military presence in Afghanistan through 2016 and beyond. This is a 
crucially important strategic indicator of U.S. commitment to 
Afghanistan's security and success. It provides clarity for Afghans, 
the Taliban and the region that there will be a significant U.S. 
military role in the future, with no deadline. I wish such clarity had 
been provided several years ago. It is critical to the confidence of 
Afghans that they can succeed, and to demonstrating to the Taliban that 
they cannot. Clarity that the Afghan project will not fail, that 
Afghanistan will not collapse under Taliban pressure and terror, will 
be crucial to the prospects for Afghan confidence, continued success 
and ultimately for peace. Preserving that clarity is in fact the 
priority strategic goal: it must be clear there is no space in 
Afghanistan for Al-Qaida and Daesh to flourish, nor a place for the 
Taliban absent a political settlement.
    With today's increased levels of violence and the evolution of new 
threats, the administration should revisit whether the U.S. security 
strategy formulated several years ago is adequate to today's task of 
ensuring the success of the ANSF. They are doing the fighting, they 
will continue to improve. Any further reduction in international forces 
must be commensurate with ANSF capabilities, and critical gaps in close 
air support, intelligence and logistics must continue to close, and not 
widen. The development of Afghanistan's own air capabilities, including 
the sustainment of their own helicopters, must be a priority.
    In this new context of clarity about the U.S. commitment to Afghan 
security, we should explore a genuine regional effort to strengthen 
Afghanistan and promote peace. There were hopeful signs at last week's 
meeting of the Heart of Asia Process in Islamabad. President Ghani and 
Prime Minister Nawaz Sharif, with the encouragement of the U.S and 
China, discussed the prospects for resumption of Afghan discussions 
with the Taliban. Nawaz Sharif repeated that Afghanistan's enemies will 
be treated as Pakistan's enemies, and both Afghanistan and Pakistan 
committed to prevent use of their territories by terrorists, and to 
dismantle sanctuaries. After the setbacks of last summer, President 
Ghani deserves credit for renewing the effort to open doors with 
Pakistan. The test will be whether Pakistan takes concrete actions not 
only to support reconciliation, but to reduce the ability of the 
Taliban and the Haqqani Network to plan and launch operations from 
Pakistan, which greatly diminishes the prospects for real negotiations.
    The crucial tasks ahead for Afghanistan are exceedingly difficult 
--improving security, creating conditions for peace, building the 
economy, strengthening governance, forging Afghan political unity and 
commitment. For Afghanistan to succeed in building on the substantial 
progress already made, two mutually reinforcing processes must be 
continued:
    First, it must be clear that adequate levels of international 
military, financial and political support are available so that the 
Afghans will have the time to build on progress made and to continue to 
take responsibility for their own affairs.
    Second, the National Unity Government needs to perform and 
demonstrate achievement to the Afghan people and the international 
community. The government has advanced an ambitious reform agenda, and 
is struggling to implement it. The new Jobs for Peace Program is an 
effort, with security and economic implications, to provide work as the 
economy develops. The challenges are considerable. Afghanistan's 
political class must understand that the opportunity today afforded 
Afghanistan is unique, and must not be squandered if Afghanistan is to 
be seen as worthy of continued international diplomatic, development, 
and defense engagement.
    The challenge to our security in Afghanistan is one part of the 
long term threat much of the world--not just the West--faces from 
terrorism rooted in violent extremism, recently highlighted by attacks 
in Egypt, Turkey, Lebanon, Paris, California, Mali and elsewhere. The 
goal remains to prevent, and to help Afghans prevent, Afghanistan from 
becoming again a platform for those who threaten us. We have tended to 
dismiss the Daesh presence as ``re-branded Taliban,'' as if that made 
it less dangerous. We have seen in Libya that such indigenous 
affiliates eventually control ground and connect with the center in 
Syria. In Afghanistan we have a strategy that can work, with a willing 
Islamic partner, in the fight against terror. With the clarity of 
international commitment, Afghanistan can increasingly become a 
contributor to security.
    We must not now lose sight of Afghanistan as we did before, after 
the expulsion, but not the defeat, of the Taliban. Our efforts there 
must be long term, and in concert with the need for the United States 
to help develop and implement a generational strategy to defend our 
people and values, while draining the life from the distorted version 
of Islam that animates Daesh, Al-Qaida and others. Experience teaches 
that ideology cannot be defeated militarily, although military force 
must be an instrument. The defeat of violent Islamic extremism can 
ultimately come only from within the Islamic world, which must play a 
leading role as part of a multilateral, multifaceted effort.
    This is the context in which our future work in Afghanistan and the 
region must be seen. The success of Afghanistan is part of this larger 
struggle, which the civilized world--including more than 1.5 billion 
peace-loving Muslims--must win. The instruments we have used in the 
past, our strategies for dealing with state-to-state conflict, our 
leadership patterns, the discourse with our publics, have not kept pace 
fully with the terrorist threats as they are evolving today and will 
exist tomorrow. In short, the United States and its partners have much 
serious work to do, and Afghanistan must be part of that effort.


    The Chairman. Thank you very much.
    I want to apologize to all of you. We have an omni bill 
that was just produced last night about 12 o'clock. Today, 
there are still discussions that are underway. As I step in and 
out, it is not out of lack of interest on this topic. We are 
going to be out of here this week with a massive piece of 
legislation that is passed, and we apologize for attending to 
that, which, by the way, parts of affect Afghanistan, too.
    Senator Cardin. I thought it was all finished. If I knew it 
was still open, I would be out there also. [Laughter.]
    The Chairman. That is a secret we are keeping. [Laughter.]
    The Chairman. Mr. Jalali, thank you.

STATEMENT OF ALI A. JALALI, DISTINGUISHED PROFESSOR, NEAR EAST 
   SOUTH ASIA CENTER FOR STRATEGIC STUDIES, NATIONAL DEFENSE 
                   UNIVERSITY, WASHINGTON, DC

    Mr. Jalali. Thank you very much, honorable Chairman Corker, 
ranking member, honorable members of the Senate Foreign 
Relations Committee. Thank you for inviting me to offer my 
evaluation of the administration's strategy on Afghanistan. The 
assessment I offer today is based entirely on my own views and 
analysis.
    Mr. Chairman, on January 1, 2015, after the coalition 
officially concluded combat missions in Afghanistan, the Afghan 
National Defense and Security Forces, in spite of specific 
capability gaps, independently faced the upsurge of insurgency 
in 2015 and to a large extent held its own, albeit with a 
higher casualty rate.
    Given the complex political and security context of the 
situation in and around Afghanistan, including the threat of 
the emerging Daesh, the Afghan National Defense and Security 
Forces are expected to face continued security threats and 
violence at least in the immediate future.
    It is a force of immense capability to face ongoing 
security challenges while still constrained by capability gaps 
in certain key areas, which have been covered by U.S. forces in 
the past. The fast-paced American force generation of 
Afghanistan National Defense and Security Forces during the 
transition period left little time to develop certain 
capabilities, including the Air Force, intelligence, and 
logistics, that take a longer time and an elaborate 
infrastructure.
    The presence of U.S. forces and NATO, and President Obama's 
decision to keep 5,500 troops in Afghanistan beyond 2017, will 
ensure continued assistance to build indigenous security 
capacity in Afghanistan to respond to the threats the country 
faces. Whether the presence of such a force would make a major 
difference is hard to determine since there are other domestic 
and regional factors that affect the situation.
    However, the absence of these forces in Afghanistan would 
definitely have an adverse impact on regional stability. The 
presence of U.S. forces in Afghanistan sends a strong message 
to friends and foes that Afghanistan is not going to be 
abandoned and the United States is still committed to help 
Afghanistan.
    Having said this, the impact of the U.S. forces along with 
some 4,000 NATO troops, which are expected to stay in 
Afghanistan, depends on their size, their mission, and the 
rules of engagement.
    The current Resolute Support Mission focuses on training, 
advising, and assisting Afghan forces at corps and ministerial 
levels through four regional train, advise, and assist 
commands, located in north, south, east, and west, with the 
center hub in Kabul. The United States leads in two of these 
commands, and provides tactical advising to the Afghan Special 
Security Forces in the Afghan Air Force.
    The low ratio of force to region and uneven capabilities of 
different regional commands is causing capacity shortfalls to 
help Afghan National Security Forces narrow their capability 
gaps, particularly in aviation, intelligence, special forces, 
and logistics.
    Further, there are uncertainties in the rules of 
engagement. The NATO partners see their combat role ended last 
year, even as they support the Afghan troops who often get 
engaged in fighting.
    The development of the Afghan National Defense and Security 
Forces cannot happen in a vacuum, but depends on the 
development and progress in other areas of institution-building 
in Afghanistan, including the rule of law. There is a strong 
need for the Afghan Unity Government to take effective measures 
to fight corruption, nepotism, and political factionalization 
within the Afghan National Defense and Security Forces.
    The Afghan Government faces an enormous challenge to forge 
political consensus, to implement reforms, to improve 
governance, and ensure unified leadership. It should make extra 
effort to meet the competing demands of maintaining unity and 
governing effectively.
    To conclude, the prospects for stability and peace in 
Afghanistan are influenced by three main factors: viability and 
effectiveness of the Afghan Government, the capacity of 
Afghanistan National Defense and Security Forces to degrade the 
Taliban power, and cooperation from Pakistan through improved 
Afghan-Pakistan relations.
    The first two factors, deny the Taliban hope to overthrow 
the Afghan Government, change their hedging mood, and bringing 
them to the negotiating table, while the third factor 
facilitates and speeds up reconciliation and reduction of 
violence and Afghanistan.
    Thank you very much.
    [The prepared statement of Mr. Jalali follows:]


             Prepared Statement of Professor Ali A. Jalali

    Honorable Chairman Corker, honorable members of the Senate Foreign 
Relations Committee, Thank you for the invitation to offer my 
evaluation of the administration strategy on Afghanistan. The 
assessment I offer today is based entirely on my own views and 
analysis.
    Mr. Chairman, On January 1, 2015, the Afghan National Defense and 
Security Forces (ANDSF) took over full security responsibility in 
Afghanistan after the United States officially concluded Operation 
Enduring Freedom (OEF) in Afghanistan, and U.S. Forces-Afghanistan 
(USFOR-A) transitioned to Operation Freedom's Sentinel (OFS), 
contributing to both the NATO's Resolute Support mission and continuing 
U.S. counterterrorism efforts against the remnants of al Qaeda.
    In spite of specific capability gaps the ANDSF independently faced 
the upsurge of insurgency in 2015 and to a large extent held its own 
albeit with a higher casualty rates. Given the complex political and 
security context of the situation in and around Afghanistan, including 
the rise of new threats of violent extremism in the region, including 
the emerging affiliates of the Islamic State in Iraq and Syria, known 
as DAISH, ISIL and ISIS, the ANDSF is expected to face continued 
security threats and violence at least in the immediate future.
    The ultimate goal, thus, should be building and sustaining 
sufficient indigenous defense and security capacity in Afghanistan to 
deal with emerging threats in the region. This involves not only 
generating and maintaining sufficient forces but also ensuring their 
financial sustainability, their operational effectiveness and agility 
to operate in a non-conventional environment and to deal with complex 
adaptive enemies in mostly nonlinear modes of combat.
    It is in this regional security context that the United States 
strategy in Afghanistan needs to be defined and its effectiveness 
evaluated.
             u.s. residual military presence in afghanistan
    President Obama's recent decision to maintain U.S. forces in 
Afghanistan at current levels for at least another year and to reduce 
only to a baseline of 5,500 as it relates to sustaining stability and 
maintaining progress toward peaceful and responsible government, was 
welcomed by the Afghan government and the Afghan populations as it 
ascertained U.S. continued support to the country at a time that it is 
not yet able to respond to the security threats in the region solely by 
its own resources.
    Whether the presence of a baseline 5,500 U.S. troops in Afghanistan 
can make a major difference is hard to determine since there are other 
domestic and regional factors that affect the situation. However, the 
absence of the U.S. forces in Afghanistan will definitely make and 
adverse impact on regional stability. The presence of U.S. forces in 
Afghanistan sends a strong message to friends and foes that Afghanistan 
is not going to be abandoned.
    Having said this, the impact of the U.S. forces in Afghanistan 
depends less on their numbers and more on their assigned mission and 
the rules of engagement.
    The Current NATO's Resolute Support Mission focuses on Training, 
Advising and Assisting (TAA) of Afghan forces at corps and Ministerial 
level through four regional ``Train, Advise and Assist'' commands 
(TAACs) located in the north, south, east and west with a central hub 
in Kabul. The TAACs are led by different nations. The United States 
leads TAAC-South in Kandahar and TAAC-East in Jalalabad; Germany leads 
TAAC-North in Mazar-e-Sharif; Italy leads TAAC-West in Herat; and 
Turkey leads TAAC- Capital in the Kabul area. The U.S. and coalition 
also continue to provide tactical advising to the Afghan Special 
Security Forces (ASSF) and the Afghan Air Force (AAF). The low ratio of 
force-to-regions and uneven capacities of different regional commands 
is causing capacity shortfalls to help ANDSF narrow their key 
capability gaps particularly in aviation, intelligence, Special Forces, 
and logistics.
    Further, there are uncertainties in the rules of engagement. The 
NATO partners see their combat role ended last year even as they 
support the Afghan combat troops who often get engaged in fighting. 
Meanwhile, based on their new rule of engagement the US forces take 
action against non-al Qaeda groups (including the Taliban) only when 
they pose a direct threat to U.S. and coalition forces or provide 
direct support to al-Qaeda. However, as part of the continued tactical-
level TAA mission with ASSF and AAF, U.S. and coalition forces may 
accompany Afghan counterparts on missions in an advisory role during 
which U.S. forces may provide combat enabler support such as close air 
support. Similarly, the U.S. forces are also permitted to provide 
combat enabler support to Afghan-only missions under limited 
circumstances to prevent detrimental strategic effects to the campaign. 
The recent Taliban attacks in Kunduz and Helmand provinces showed that 
without the direct air support by the U.S. forces the Taliban would 
have overrun and controlled several key areas. This requires a review 
of the rules of engagement until ANDSF narrow their capability gaps, an 
effort that may take at least five years given the current level of 
international assistance.
            the u.s.-afghanistan partnership to build andsf
    The Commitment of the Afghan Unity Government to long-term 
partnership with the United States for security cooperation provides a 
great opportunity for the development of effective ANDSF. With the 
strong operational and financial assistance of the United States, in 
the past 14 years, the ANDSF have come a long way transforming from an 
odd assortment of factional militias into modern security institutions 
with professional capacity and political loyalty to a unified state. It 
was a long journey over a bumpy road entailing significant achievements 
and often avoidable failures with lasting impacts that shape the 
current status of the country's security institutions--A force of 
immense capability to face ongoing security challenges while still 
constrained by capability gaps in certain key areas.
    To fill these gaps the ANDSF have long been dependent of U.S. 
support in its operations. The fast-paced numerical force generation of 
ANDS during the transition period left little time to develop certain 
capabilities including the air force, intelligence and logistics that 
takes longer time and elaborate infrastructures.
    Further, the development of the ANDSF cannot happen in a vacuum but 
depends on the development and progress in other areas of institution 
building including the rule of law. There is a strong need to take 
effective measures to fight corruption, nepotism and political 
factionalization of the ANDSF.
    Interference of politicians, top government officials and power-
brokers in appointment of men and women of their personal choice to 
higher position not only undermine professional effectiveness of the 
army and police, as they face a brutal war, but also undermine morale 
and motivation to fight for the regime. The situation also encourages 
corruptions where incompetent officers and commanders can gain their 
posts through bribery or political influence. The most damaging issue 
that undermines legitimacy is the rush of political elite to extend 
their patronage network through posting their adherents in key security 
positions at the expense of winning the war. With the rise of 
insurgency some powerbrokers have managed to remobilize and arm their 
militias under the guise of local anti-Taliban militia or the Afghan 
Local Police (ALP) who in certain area have been involved in abusing of 
the population undermining the legitimacy of the state.
    The key to the sustainability of the ANDSF as an effective force is 
to empower the Afghan indigenous capacity through narrowing the gaps 
and upgrading its capability particularly in five key functional areas: 
Leadership, combined arm integration, command and control, training and 
sustainment. This may take longer than the assumed life of the RSM that 
ends in 2017. The follow-on level of assistance to ANDSF--the Enhanced 
Enduring Partnership (EEP or else)--may be required at least for five 
more years and a NATO-Afghanistan counter-terrorism partnership for ten 
years. The nature of NATO involvement beyond the RS mission is expected 
to be defined in the next NATO Summit in Warsaw planned to meet in July 
2016. Further, The U.S.-Afghanistan Bilateral Security Agreement (BSA) 
commits the United States ``to assist ANDSF in developing capabilities 
required to provide security for all Afghans,'' which includes 
``upgrading ANDSF transportation and logistics systems; developing 
intelligence sharing capabilities; strengthening Afghanistan's Air 
Force capabilities; conducting combined military exercises; and other 
activities as may be agreed.''
    sustained comprehensive cooperation with afghan unity government
    The key factor in improving prospects for sustained political, 
economic and security cooperation with the National Unity Government is 
to implement the promised structural, electoral and functional reform 
within the Afghan state. The key challenge is how to reconcile the 
competing demands of maintaining unity and governing effectively in the 
face of shared authority of the two leaders in appointment to key 
positions in the government and the diverse political programs of the 
two main components of the Unity Government and how to avoid frictions 
in a duumvirate system without solid constitutional basis.
    These problems notwithstanding, the legitimacy of the Afghan 
government is helped by strong international backing particularly the 
U.S. support of the AUG and the compromises by the political elite to 
maintain unity albeit at the expense of effectiveness. The absence of a 
viable alternative is another element of public acceptance of the AUG. 
An overwhelming majority of Afghans continue to see the armed 
opposition an undesirable choice. But this situation can change either 
as a result of fading international support or continued 
ineffectiveness of the AUG particularly its failure to improve 
security, fight corruption, ensure economic recovery, address growing 
unemployment and attend to rising demographic issues.
    Short term economic measures to provide some stimulus. The weak 
economy is one of the Unity Government's great vulnerabilities, and 
simply demonstrating that a plan exists and that there is a will to 
implement would help halt the hemorrhage of confidence.
    Practically, the only real option is for the unity government to 
understand that it is facing a crisis and begin acting as if it were. 
At a minimum, that Ghani and Abdullah have to make mutual compromises 
to decide on the appointment of positions and the formulation of 
policy. It will also require a serious strategic review of last year's 
security operations and a concerted plan that takes advantage of 
President Obama's extension of the U.S. military presence to reverse 
the battlefield momentum that now favors the Taliban. The fall of 
Kunduz can be directly linked to the rivalry within the national 
government and its failure to project a sense of strategic direction. 
The division within the Afghan government extends to the lowest units 
of administration. The good news is that Kunduz, while lost by informal 
militias and dysfunctional government, was regained by national forces 
acting in the name of the state.
                      the role of regional actors
    Although all regional actors agree that stability in Afghanistan 
contributes to peace and security in the region, they see the stability 
from different perspectives. Among the regional countries Pakistan can 
play a more influential role in facilitating peace in Afghanistan 
through peace talks between the Afghan government and the Taliban. 
Pakistan has control and influence over the Taliban as their bases are 
in Pakistan and they have access to means which support the logistics 
of their war in Afghanistan.
    Pakistan has also suffered from terrorism and extremists' 
insurgency and has been forced to launch major counterinsurgency 
operation in its tribal areas. Both the Pakistani government and its 
army leadership has indicated willingness to cooperate with 
Afghanistan, U.S. and other regional countries in support of a 
political settlement in Afghanistan. However, while such promises are 
encouraging, the real change will come only when promises are supported 
by deeds.
    In general, prospects for a political settlement in Afghanistan are 
influenced by three main factors: Viability and effectiveness of the 
Afghan government; the capacity of ANDSF to degrade the Taliban power; 
and cooperation from Pakistan through improved Afghan-Pakistan 
relations. The first two factors deny the Taliban a hope to overthrow 
the Afghan government and change their hedging mood while the third 
factor facilitate and speeds up reconciliation.
    Improvement of cooperative ties between Kabul and Islamabad is 
crucial to creating favorable environment for political settlement of 
the Afghan conflict. The Afghan President Ashraf Ghani has taken steps 
toward improving relationships with Pakistan in the interest of joint 
efforts to deal with the security challenges in Afghanistan and the 
region. After some initial improvement including Islamabad's assistance 
to host the first direct talks between the Afghan Government and the 
Taliban representative in Murree, Pakistan, on July 7, the relationship 
suffered a major setback. The hindrance was caused by rising mistrust 
between Kabul and Islamabad following the announcement of the death of 
the Taliban leader Mullah Omer who had died more than two years back in 
Karachi leading to Kabul's suspicions of Pakistani cover up. Further 
the upsurge of violence in Afghanistan by the new Pakistan-based 
leadership of the Taliban and failure of Pakistan to stop the public 
gathering and free movement of the Taliban on its soil in support of 
their attacks in Afghanistan added to the mistrust.
    Rising concerns over continued instability and the emergence of the 
ISIS in Afghanistan and Pakistan, have created a new regional dynamism 
by major powers including China and the United States to help the peace 
process in Afghanistan. However, even if such process begins today, it 
will take several years before it leads to a peaceful settlement of the 
Afghan conflict.


    The Chairman. Thank you, sir.
    Dr. Vittori?

   STATEMENT OF JODI VITTORI, SENIOR POLICY ADVISER, GLOBAL 
                   WITNESS, WASHINGTON, D.C.

    Dr. Vittori. Chairman Corker, Ranking Member Cardin, and 
honorable members of the committee, thank you for the 
opportunity to appear before you today and your continued 
interest in Afghanistan.
    As a civil society organization dedicated to ending the 
nexus between corruption and conflict, especially in the 
natural resource sector, Global Witness has worked in 
Afghanistan since 2011, traveling regularly to work in the 
country with our local civil society partners, the Afghan 
Government, and international donors to build momentum for 
governance reforms. As one of the leading counter-corruption 
organizations operating there, Global Witness was honored this 
June to be invited, along with Transparency International and 
Integrity Watch Afghanistan, to meet with President Ghani to 
discuss government reform.
    As the Afghan Accountability Act of 2015 makes clear, 
corruption remains an existential threat to the Afghan state. 
Much hope has been placed in the National Unity Government, and 
there have been some early countercorruption victories.
    For example, President Ghani has set up a procurement board 
and personally reviews all contracts over $1 million. President 
Ghani, CEO Abdullah, and other senior members of the government 
have now declared their financial assets.
    But the view from the ground from civil society is that 
corruption continues to grow in response to political 
stagnation, rising insecurity, and economic decline.
    While the Afghan Government has publicized important 
counter corruption initiatives, there is a lack of strategy and 
institutionalization of reforms.
    Surveys show this year that over half of all Afghans 
reported paying a bribe, and 90 percent of Afghans said that 
corruption is a problem in their daily lives.
    Recent scandals have also hurt the perception of reform, 
most notably one involving senior government officials working 
with the perpetrator of the 2010 Kabul Bank scandal for a 
highly profitable public-private partnership on land, which 
should have been already confiscated, and with money whose 
origins remain unclear.
    A cynical response to all this could be that the place is 
just too corrupt and to give up trying. Instead, Global Witness 
believes that while anticorruption efforts will take time, 
there are immediate measures that can have a substantial impact 
on corruption and help Afghanistan on a more stable path. 
American leadership is especially needed in three broad areas.
    First, key aspects of countering corruption in Afghanistan 
are flagging. Without counter-corruption efforts, they will be 
stymied. One is the urgent need for the appointment of a 
permanent, confirmed Attorney General who is the only person 
according to Afghan law who can prosecute corruption.
    Also, while the Independent Joint Anti-Corruption 
Monitoring and Evaluation Committee, better known simply as the 
MEC, has had some issues, its dual-key approach of combining an 
equal number of Afghan and international members to monitor 
corruption reforms is an important asset which will need strong 
political and financial support if they are to continue to 
challenge various corrupt interests.
    Second, strategic thinking, reforms, and capacity-building 
to fight economic crime and corruption have largely stagnated. 
In order to bring this agenda back on track, reforms made in 
the wake of the Kabul Bank scandal and promised in the Tokyo 
mutual accountability framework of 2012 should be aggressively 
pursued.
    The international community largely disengaged from 
capacity-building and in overseeing a robust regulatory reform 
of the financial sector and the associated law enforcement 
after Kabul Bank. But Afghanistan is going to effectively fight 
corruption, investigate and prosecute terrorist-related 
financing, and end impunity against corrupt actors, then 
significantly increased political engagement and assistance is 
essential.
    Concurrently, the National Unity Government needs to take 
on various ongoing piecemeal efforts and craft them into an 
effective strategy that links the goals of fighting corruption 
with the ways and means at their disposal, coordinating the 
various ministries and other bodies to work as one team and one 
fight, and upon which donor assistance can be linked.
    Finally, Afghanistan needs to further build its legislative 
and regulatory framework to international transparency and 
accountability standards to create a secure environment where 
legitimate business can thrive. This includes committing and 
fully implementing the open contracting principles, the open 
government partnership, and the extractive industries 
transparency initiative.
    These would greatly improve transparency and accountability 
in key sectors of the economy, and better enable oversight by 
civil society and parliament.
    President Ghani's establishment of a procurement board is a 
good start, but it is not enough. It is hard for Afghan or 
American businesses, for instance, to risk investing capital in 
Afghanistan not only due to insecurity, but also because of its 
continued poor regulatory environment and opaque procurement 
system; corruption in taxation and customs enforcement; and, 
for American businesses, legitimate concerns with violating the 
Foreign Corrupt Practices Act.
    One area where reforms in U.S. engagement are especially 
critical is in the extractive sector, where mining should be a 
pillar of the economy and, for self-sufficiency, is instead a 
source of corruption and conflict that contributes almost 
nothing to the Afghan budget while, at the same time, it is the 
number two source of revenue for the Taliban after narcotics. 
Yet the Afghan Government has not submitted crucial amendments 
to this law yet that could increase Afghan revenues and help 
start the process of wrestling it away from various violent and 
corrupt actors.
    There are no easy fixes in the extreme predatory levels of 
corruption in Afghanistan, but there are many tools available 
to the United States in this fight. Carefully placed aid 
conditionality along with targeted funding and capacity-
building are important, so too are kingpin and transnational 
organized crime designations, visa bands, asset freezes, and 
law enforcement investigations against the most difficult 
actors.
    But most importantly, the United States needs to make 
corruption and establishing good governance a priority on par 
with security and economic development.
    With aggressive action, the battle for Afghanistan is not 
yet lost. Thank you.
    [The prepared statement of Dr. Vittori follows:]


                   Prepared Statement of Jodi Vittori

  1. where we are--the state of anti-corruption efforts in afghanistan
     It is well acknowledged that corruption in Afghanistan erodes the 
legitimacy of the government and bolsters the myriad of illicit 
terrorist and criminal actors. For that reason, both President Ashraf 
Ghani and CEO Abdullah ran on counter-corruption platforms, and both 
leaders seek to enable their nation to become a secure, economically 
viable state.
    As a civil society organization dedicated to ending the nexus 
between corruption and conflict, especially in the natural resource 
sector, Global Witness has worked in Afghanistan since 2011, travelling 
regularly to the country to work with our local civil society partners, 
the Afghan government, and international donors to build momentum for 
governance reforms so that corruption ceases to be an existential 
threat to the Afghan state. As one of the leading counter corruption 
organizations operating in Afghanistan, Global Witness was honored in 
June of this year to be invited, along with Transparency International 
and Integrity Watch Afghanistan, to meet with President Ashraf Ghani to 
discuss the government reform agenda.
    There have been some early counter-corruption victories. For 
example, President Ghani has set up a procurement board and personally 
reviews all contracts over one million dollars, claiming that millions 
of dollars have been saved, for instance, in fuel contracts for the 
Ministries of Defense and Interior. President Ghani, CEO Abdullah, and 
other senior members of the government have also now declared their 
financial assets, and the High Office of Oversight and Anti-Corruption 
(HOOAC) is reportedly in the process of further asset registration, as 
required by Afghan Law and its commitments in the United Nations 
Convention Against Corruption (UNCAC).
    Nevertheless, the view from the ground is that building a more 
transparent, accountable, and legitimate Afghan government that can 
ultimately fund and protect itself remains a formidable challenge. 
While the Afghan government has publicized important counter-corruption 
initiatives, there has been a lack of strategy and institutionalization 
of reforms. There are consistent reports that corruption increased in 
the aftermath of election turmoil in 2014 and continues to grow in 
response to political stagnation, rising insecurity, and economic 
decline.
    Recent new scandals have hurt the perception of government 
commitment to a reform agenda. One of the most notable involves senior 
government officials working with the perpetrators of the 2010 Kabul 
Bank scandal for a highly profitable public-private partnership on land 
which should have already been confiscated and with money whose origins 
are unclear. Last month, the government announced a contract for a new 
township of nearly nine thousand homes across over thirty acres of land 
near Kabul with an initial investment of at least $95 million. One of 
the leading investors, however, was Khalilullah Frozi, who was supposed 
to be serving a fifteen year prison sentence for his leading role as 
the Chief Executive of Kabul Bank, which collapsed in 2010 after 
revelations that nearly $900 million had been embezzled from the bank 
by key elites in the Afghan government. At the very public ceremony to 
sign the contract, Frozi was flanked by President Ghani's legal advisor 
and the Special Representative of Afghanistan in Reform and Good 
Governance.
    Meanwhile, the very public resignation by Drago Kos, the former 
leader of the Independent Joint Anti-Corruption Monitoring and 
Evaluation Committee (MEC), further hurt perceptions of the 
government's commitment to reform. Mr. Kos was quoted by the New York 
Times as saying ``With the exception of some sporadic activities, in 
one year since the new president and the CEO took positions, I could 
not see any systematic action against endemic corruption in the 
country. All we've needed was some good political will and support, 
which never came and in such circumstances, I did not see the point to 
go on.''
    At the same time, corruption continues to be cited as a primary 
reason for growing insecurity there. Numerous reports by think thanks, 
UN agencies, human rights organizations, and the media have documented 
a litany of abuses by Afghan elites (and a significant number of 
internationals) during the fourteen years of American involvement: 
Afghan police chiefs with literally tons of heroin stored in their 
compounds, senior commanders involved in human rights abuses, private 
militias, smuggling, and massive levels of corruption which undermine 
the capacity and legitimacy of the state. Powerful strongmen and local 
warlords have a stake in maintaining a dysfunctional government 
unwilling or incapable of reining them in. Such leaders have rarely 
been removed, and even if they were, they tend to be ``recycled'' into 
new positions shortly after.
    And yet, many of these warlords have been largely embraced as 
necessary evils, they have been considered the only ones capable of 
fighting the Taliban and holding their districts or the government 
together. They have been provided with training, weapons, airpower and 
logistical support, and political backing. Many Afghans naturally 
assumed that the American and other NATO governments also backed their 
misdeeds, and were driven into the arms of the insurgency, thereby 
helping re-empower the Taliban, who had initially been decimated and 
discredited by 2002.
    Increasingly, academic studies bolster this picture. A 2014 
Carnegie Endowment report highlighted the correlation between high 
levels of corruption and political instability, including everything 
from civil protests all the way to revolutions and civil wars. In May 
of this year, the Institute for Economics and Peace went one further in 
its monograph Peace and Corruption, which documented a ``tipping 
point'' in countries where small increases of corruption lead to a much 
higher likelihood of conflict.
    The economic impact of corruption is also critical. Afghanistan's 
ability to get its fiscal house in order and prosecute corruption and 
economic crime will ultimately be a fundamental determinant to security 
and economic growth there. It is well documented that much economic 
activity takes place in the illegal sector, especially narcotics, but 
also in lucrative sectors like human smuggling, precious minerals 
trafficking, and consumer goods smuggling. This empowers corrupt 
politicians and other criminal actors and is an enabler for terrorist 
financing, but it also further widens the fiscal gap between the Afghan 
budget and revenues into the Afghan Treasury--a gap which US taxpayers 
are then called on to help fill. Corruption, especially in tax and 
customs departments, mean the Afghan government remains starved of 
crucial revenues that are desperately needed to fund its security and 
development, as well as to eventually wean itself off of foreign 
assistance. Grand corruption and the perceived immunity of public 
officials involved in that corruption further alienates international 
donors, which could lead the United States to take on additional 
financial and even security burdens as other allies eventually pull 
back support.
    All of this has challenged the American strategy that security 
could be achieved first, even at the cost of arming warlords, and that 
``soft issues'' like human rights, transparency, accountability, 
governance, and justice reforms could be dealt with afterwards. On the 
contrary, the studies show that if improving governance and security do 
not go hand in hand, then long term peace and stability will be 
difficult, if not impossible, to achieve. This makes governance a 
security issue--not simply a concern for civil society, but a matter of 
core US self-interest.
             2. what can be done to ensure crucial reforms?
    A cynical response to all of this could be that the place is just 
too corrupt to make anything happen and to give up trying. Instead, 
Global Witness believes that, while anti-corruption efforts there will 
require a generation, there are many short-term measures that can have 
a substantial impact on corruption and help to put Afghanistan on a 
more stable path, and the United States has a crucial leadership role 
to play in making this happen.
    Effectively combatting corruption in Afghanistan unavoidably 
requires an increase in accountability and transparency. That is not an 
easy task, not least as it affects the interests of powerful elites and 
is unavoidably political. But there are measures which can reduce the 
political effort required, and make it easier to get results.
    It is important to note that the primary actor in this effort has 
to be the Afghan government: in the end only they can put in place 
lasting reforms and create accountability in their own country. But the 
US has considerable influence which it can and should use, and many of 
the levers of this influence have not been fully employed in this 
particular fight. They range from deciding who to invite for training 
in the US or to meet a visiting American VIP, up to asset seizures and 
criminal proceedings against individuals with US citizenship or other 
links to America. These tools need to be used carefully and 
appropriately, and with a clear aim of affecting the incentives and 
interests of those involved in abuses, but they can have a very real 
impact.
    There is some discussion about whether the US should increase 
conditionality around its support to the Afghan government to achieve 
these aims. Conditionality can be a blunt instrument, and the Afghan 
government has valid concerns about its effects on sovereignty. 
However, it is legitimate for the American government to expect its 
Afghan partners to live up to their commitments on governance issues. 
Even if conditionality is avoided, the US government can do much to 
build in incentives for progress into its support to the Afghan 
government.
    We ask for additional support in the form of leadership, political 
engagement, and sometimes, additional funding from Congress in three 
key areas.
    First, the government and its international partners can do more to 
ensure direct accountability where there are abuses. The Afghan 
government desperately needs a permanent, confirmed Attorney General to 
prosecute corruption, and to develop the capacity and teeth of 
enforcement and oversight bodies. A strong Monitoring and Evaluation 
Committee (MEC) can also help by providing investigations and oversight 
in the counter-corruption fight. Second, there are many opportunities 
to strengthen the legal framework to integrate transparency and 
accountability in a way which effectively raises the costs for abuses. 
That includes anti-corruption, transparency, fiscal and banking 
reforms--which will have the major added benefit of improving the 
environment for business and investment and spurring growth in the 
Afghan economy. Third, in accordance with its international 
commitments, Afghanistan should fully implement international 
standards--such as the Extractive Industry Transparency Initiative 
(EITI), Open Contracting Principles, and Open Government Partnership in 
order to improve transparency and accountability, and thus civil 
society and Parliamentary oversight.
    Most importantly, countering corruption in Afghanistan is difficult 
without the appointment of a permanent Attorney General--the only 
person according to Afghan Law who can prosecute corruption. 
Afghanistan has gone far too long without leadership in this key 
position, with only an acting official in place--the same individual 
who has been in the position for many years under the Karzai 
government. Once an Attorney General is confirmed, they will need 
material support but more importantly political backing to carry out 
their role effectively.
    Also, while the MEC has had a leadership changeover and has had to 
engage in some housecleaning, its ``dual key'' approach of combining an 
equal number of Afghan and international members to monitor corruption 
and reforms is a unique capability that is being copied in places like 
Ukraine. Three members of the MEC are Afghans who have local knowledge 
of how corruption works there. The other three are international 
members who have a substantial background and outstanding reputations 
in anti-corruption efforts. All decisions by the group require at least 
four of six votes, so that both aspects of Afghan counter-corruption 
are represented. The result is over three hundred recommendations made 
by the MEC, with regular reports on implementation of those 
recommendations. They have also published well-respected, authoritative 
reports on the Kabul Bank scandal, civil service appointments, and 
corruption case tracking. The MEC is preparing to undertake an 
investigation into corruption in the Ministries of Defense and 
Interior, including assessing corruption in staff, salaries, 
ammunition, and food. In order to strengthen this body, the MEC 
requires continued political support from Congress and the State 
Department as it provides oversight of corruption that can rile members 
of corruption networks, as well as funding to continue their mission.
    Law enforcement agencies charged with fighting corruption, such as 
the Major Crimes Task Force, as well as supervisors within 
Afghanistan's Central Bank, were decimated under the Karzai 
administration and will need to be rebuilt. A vetted judicial sector 
for trying corruption-related cases, similar to the system developed 
for narcotics cases, may also be required.
    Again, financial and economic corruption is a special concern. Up 
through the Kabul Bank scandal, which broke in 2010, and through the 
publication of the 2012 Tokyo Mutual Accountability Framework (TMAF), 
there were robust efforts by a myriad of international actors to help 
build capacity, provide technical assistance, and funding, including 
from the International Monetary Fund and the US Treasury Department. 
Due to a perceived lack of political will by the Karzai administration 
for reforms as well as a deteriorating security situation, much of that 
assistance has since significantly decreased. Afghanistan cannot 
rebuild its financial and law enforcement institutions, meet is anti-
money laundering (AML) and counter threat finance (CTF) commitments, or 
eventually develop a viable banking system without such support.
    In order to bring this agenda back on track, we call for the 
commitments for reforms made in the wake of the Kabul Bank scandal and 
promised in the TMAF to be aggressively pursued. This includes the 
creation of a credible body that meets regularly, reports to the most 
senior levels of the Afghan government, and through which the 
international community can engage on these important reforms. In 
particular, the Afghan government has promised to develop an Economic 
Crimes Task Force which could fulfill this role. Concurrently, the 
Afghan government should develop a strategy to link its anti-corruption 
goals with the ways and means it has at its disposal. Such a strategy 
should identify shortfalls in capacity and funding as well as work with 
the international donors to develop solutions to meet shortfalls. 
Specific focus areas to get Afghanistan's fiscal house in order will 
include developing a strong bank regulatory and supervisory framework, 
resolution of Kabul Bank and its missing assets, asset recovery for 
other monies that has been spirited overseas, and oversight and 
assessment of other Afghan banks.
    In addition to incentives such as increased funding and technical 
assistance, carefully considered and targeted incentives should be 
built into US support to encourage and assist the Afghan government to 
make difficult political reforms that will threaten the interests of 
entrenched, corrupt actors. Kingpin, transnational crime, and terrorist 
finance designations along with visa bans may also help marginalize 
particularly malign actors, as well as keep the proceeds of Afghan 
corruption out of the American banking system.
    Second is a stronger effort to fill the gaps in the legal framework 
against corruption. Stronger rules on transparency and accountability 
do not eliminate the need for political will, but they can seriously 
increase the cost of abuses reduce the political capital needed to 
prevent them. President Ghani's establishment of a procurement board is 
a good start here, but more could be done. President Ghani's personal 
commitment to oversee major contracts is an important aspect of a 
counter-corruption fight. Given the role that government procurement 
plays in the Afghan economy, it is also a major economic issue. This 
procurement board, however, now needs to be institutionalized, and core 
principles incorporated into the Procurement Law and other legislation. 
Core transparency principles can help here. For example, contract 
publication should be made a condition for validity and implementation 
of contracts--an effective way to guarantee that abusive, secret 
contracts are no longer an issue even where corrupt officials might 
want to conceal them. Routine publication of the beneficial ownership 
information of contracting companies is more challenging but can 
uncover corrupt allocation of contracts, and data on contract 
performance makes it harder to conceal abuses.
    Afghanistan could also do more to fully implement three key 
international transparency and accountability mechanisms: the 
Extractive Industry Transparency Initiative, the Open Contracting 
Principles, and the Open Government Partnership. The United States has 
committed itself to all three of these. While Afghanistan has made 
significant progress in the EITI recently, much work remains to be done 
for it to be validated as fully compliant by the December 2016 
deadline, along with regular compliance requirements thereafter. 
International donors and civil society groups have pledged assistance 
to Afghanistan to help achieve these international standards, but 
Afghanistan will still need political support, technical assistance, 
and perhaps funding to reach key benchmarks.
    Again, it is worth stressing the importance of these reforms not 
just to Afghanistan's security, but to the Afghan economy and its 
ability to move towards self-sufficiency. These reforms are not an 
obstacle to legitimate business, they are an essential enabler. It is 
hard for Afghan or American businesses, for instance, to risk investing 
capital in Afghanistan due not only to insecurity, but also because of 
a poor legislative and regulatory environment, an opaque procurement 
system, a lack of accountability in taxation and regulatory 
authorities, and, for American businesses, legitimate concerns about 
possible violation of the Foreign Corrupt Practice Act.
    An excellent example of this is the role mining plays in 
Afghanistan. The US Geologic Survey proved that are substantial mineral 
deposits in Afghanistan, and mining should be a central driver of the 
Afghan economy and a major source of revenue for the Afghan budget. 
Instead it is a major source of conflict and corruption, and brings in 
little or nothing in taxes, on the contrary, the United Nations has 
noted that mining is the number two source of revenue for the Taliban, 
just behind the narcotics sector. And not only is the Taliban garnering 
revenues from mining, but so too are other illicit actors, including a 
variety of warlords and criminal networks. Fighting over key mining 
areas is a major source of insecurity. For instance, Global Witness has 
received numerous credible reports that the fight over lapis mines and 
key lines of communication for smuggling lapis lazuli in Badakhshan 
Province contributes to fighting between various warlords as well as 
moves by the Taliban to control districts there.
    Nevertheless, despite two different mining laws passed by the 
Afghan Parliament and signed by President Karzai since 2004, 
Afghanistan's mining law still lacks basic investor protections against 
expropriation. It also lacks transparency and accountability 
mechanisms, as well as protections for local communities and cultural 
and archeological relics. Reputable mining firms will seek these kinds 
of laws and regulations before they can have confidence that they can 
invest millions of dollars in long term mining projects and reasonably 
expect return on their investment. Global Witness, pro bono work by 
international legal experts in natural resource law, and Afghan civil 
society organizations have worked to support the Afghan government by 
developing legal language for the most important reforms, but so far, 
those reforms have not been submitted to the Afghan Parliament for 
debate. Key reform benchmarks include requiring publication of project-
level production and payment data of natural resource contracts, 
creation of a single, transparent account for all natural resource 
payments to ensure better tracking and accountability, and stronger 
rules for more transparent and fair bidding procedures on natural 
resource contracts. But putting these reforms in place has not been a 
priority for the US engagement with the Afghan government.
    Make no mistake that there are no easy fixes to fighting the 
extreme predatory levels of corruption in Afghanistan. Case studies 
published by the World Bank in 2011 demonstrated that fighting grand 
corruption is usually a generational struggle. But these case studies 
also prove that corruption can indeed be battled. The groundwork for 
that reform in Afghanistan must be established now if corruption is 
going to ultimately be controlled so that security can be established 
and a sustainable economy developed, but to do so, anti-corruption will 
have to be prioritized alongside security and economic development, 
rather than treated as an afterthought. Strong, consistent leadership 
by the United States can help make that happen. Careful use of all the 
levers of US influence, legal reforms, and targeted funding, and 
capacity building can begin to turn the country around before it is too 
late.


    The Chairman. I thank all three of you. We appreciate it. 
We are privileged to have the opportunity to have people like 
you before us. Again, we thank you for your time and 
preparation in being here.
    Ambassador Cunningham, I think people would say you worked 
for one of the most difficult people ever when you were working 
with President Karzai. We ended up with the Ghani government, 
which I think most people believe is a pretty good outcome for 
Afghanistan.
    I know there are a number of things that he needs to put in 
place. I know he is a technocrat, probably not quite as much of 
a politician as Karzai was, but understands things about good 
governance and corruption and those kinds of issues.
    But at the same time, it is going to be very difficult for 
him to be successful, is it not, unless there is a secure 
environment there? I mean, I think, at the end of the day, that 
is the number one thing that will inhibit his ability to be 
successful.
    I would like you to speak to that, but also, are there 
additional diplomatic and/or other tools that you think we as a 
Nation in current times are not utilizing properly?
    Ambassador Cunningham. Thank you for the question, Senator.
    I think security really is at the base of everything that 
Afghans want to accomplish. The huge amount of uncertainty over 
the last couple years, generated by Karzai's refusal to sign 
the bilateral security agreement, which we negotiated, which I 
negotiated, the uncertainty around the political process, the 
uncertainty about what would happen with American troops and 
the American troop presence, given the President's announced 
deadline for withdrawal by the end of 2016, created a massive 
amount of uncertainty and loss of confidence in the Afghan 
system that they are only now beginning to recover from.
    That is why I said in my statement, the President's 
decision to extend the troop presence through 2016 without a 
deadline is the first time in many years that there has been a 
degree of certainty that the United States will actually be 
present in a significant way militarily to continue to support 
the Afghan security forces. That is an incredibly important 
signal to Afghans and to the region that we need, 
diplomatically with our partners, to find a way to magnify and 
to leverage to affect strategic calculations among our 
adversaries, strategic calculations in the region about hedging 
activity and which way the future will go, and to give 
confidence to the Afghans and the security forces that they can 
succeed and that we and our partners will be there to help them 
in those times that they fall short.
    So I think this is now a new opportunity for all of us to 
move forward and to try to counteract, I guess is the best 
word, the kind of report that you and your committee members 
were so concerned about hearing from the intelligence community 
the other day.
    The Chairman. Mr. Jalali, I do not know what numbers are 
public and what numbers are not public, so, like Senator Kaine, 
I want to be very careful. But at a minimum, there is a massive 
turnover rate in the military. I do not even want to speak to 
what the official numbers are, but they were very large, at a 
minimum.
    I know that you have discussed the need for us to be there 
under this same arrangement for 5 years. Is that correct, in 
your written testimony? I think all of us, whenever we go to 
Afghanistan, we are taken to where the Afghan military is being 
trained, and we are seeing the maneuvers they are going 
through. While we appreciate the fact that people in 
Afghanistan are good fighters, it is hard to detect a real 
commitment and professionalism in that regard.
    I am just wondering if you could speak to the turnover rate 
and also the things we need to do over the next 5 years to 
ensure that Ghani is able to be successful and/or his 
successor.
    Mr. Jalali. Thank you, Senator, for the question. There are 
a number of factors that affect this situation.
    Five years is just an approximate number. What we are 
talking about in 5 years is also getting a cue from the recent 
NATO discussions and NATO meetings that would reveal that need 
to, like to, continue the level of support that will keep about 
12,000 troops in Afghanistan for the next 5 years, which I 
think probably will be discussed during the NATO summit in 
Warsaw in July.
    But what I am talking about for 5 years is because I see 
the gaps in the capabilities of Afghan National Security 
Forces. They fight well, but because of the lack of 
capabilities, they are unable to have the kind of agility that 
they need in order to respond to the insurgent attacks 
everywhere.
    Now in order to cover the very difficult areas in the 
country, most of the Afghan National Security Forces are based 
on fixed bases. Then the Taliban have the ability to choose the 
time and space to concentrate against fixed targets and Afghan 
National Security Forces.
    The low ratio of force to space can be compensated by 
technological force multipliers. That is the Air Force. That is 
mobility. That is firepower and also logistics. Therefore, it 
will take a long time for Afghan National Air Force to develop 
and also the logistics system, the intelligence, and the 
special forces operation.
    Until that happens, Afghanistan will be handicapped by 
being kind of mostly a static force and not have the agility to 
respond quickly to the Taliban.
    In Kunduz and Helmand, it was the airstrikes by the United 
States Air Force that helped Afghan Government forces deny 
Taliban getting control of logistics or to expel the Taliban 
from Kunduz.
    The Chairman. I know my time is up, and I obviously want to 
be courteous to the other members.
    Culturally, what is happening within the Afghan military 
where we have such a high percentage of people who leave each 
year, that then cause us--again to keep the numbers that we 
have in mind, we have a massive amount of training that we have 
each year. Therefore, you lack the experience on the ground 
that otherwise would be the case.
    Mr. Jalali. That is a problem, Senator.
    Nobody knows the actual numbers of Afghan National Security 
Forces. On paper, we have 195,000 army and 157,000 police. 
However, according to the information I have, I got from Afghan 
and also international sources in November, about 90 percent of 
the forces are not on duty.
    The Chairman. Ninety percent of the forces.
    Mr. Jalali. Ninety percent, 90 percent are present, between 
90 and 91 percent, which means in November, the number of the 
Afghan army was about 75,000. So it was 25,000 less than the 
authorized level.
    On the other hand, some of the troops are deployed in 
difficult topographical areas. They are there and they cannot 
be moved easily to concentrate troops against the concentration 
of Taliban.
    So then, many of the troops are exhausted, and they have 
little time to go on leave. Plus when they go on leave, their 
families are threatened by Taliban not to go back.
    So the attrition rate is about 5,000 a month. But at the 
same time, the number of volunteers who come far exceeds the 
number of people who leave the army. So there is no fact of 
volunteers. However, the technicalities make it difficult to 
have the full level of forces at the same time.
    The Chairman. Thank you.
    Dr. Vittori, I know others will ask you questions, I am 
sure, about corruption. We know that is a massive issue in the 
country. And, obviously, it cannot go forward productively 
without dealing with that. Thank you for being here.
    Senator Cardin?
    Senator Cardin. That is what I am going to ask about. Thank 
you.
    First of all, all three of you, thank you very much. I 
agree with the chairman. I found your written testimony and 
your presentations here to be very, very helpful for us to 
truly understand the challenges that we have in Afghanistan.
    So I think today's hearing has been very helpful, both 
panels.
    I want to try to drill down for all three as to what the 
United States can do in its policy in order to try to advance 
the issues that you raised in your individual presentations.
    Dr. Vittori, I tell you, I found your statement to be 
extremely helpful in a roadmap to what Afghanistan needs to do 
to fight corruption. You were pretty specific as to ways that 
we could advance that through the tools we have available in 
our toolkit.
    Could you give me perhaps your first, your second, or third 
priorities as to where you would like to see the United States 
concentrate for change in Afghanistan to fight corruption?
    Dr. Vittori. Thank you, Senator. I appreciate that.
    As we put it in our written testimony for Global Witness, 
our first immediate priority is that there really needs to be 
an Attorney General appointed, a permanent Attorney General. 
The current acting Attorney General has been there for----
    Senator Cardin. That is your top priority?
    Dr. Vittori. For the extremely short term, which actually 
President Ghani I believe has promised in the senior officials 
meeting to have that by the end of this month.
    We have an acting Attorney General right now who has been 
there since the Karzai administration, and the Attorney General 
is the only government official, ultimately, who can prosecute 
corruption. We would obviously strongly urge that this be a 
very high-quality individual with a very strong mandate to go 
after corruption, after the difficulties of the previous 
administration.
    But overall, we would say in the long term that, whereas 
the United States seems to have primarily prioritized security, 
hoping that they could catch up on governance later, what we 
find in everything from think tank studies to academic studies 
to experience on the ground is that governance and security 
have to be operated concurrently and have to be prioritized 
concurrently.
    I think the questioning from the previous panel 
demonstrated that when you look at issues like Kunduz with the 
practice, for example, of arming warlords for the last decade 
or so there. Think tanks have noted that these warlords, in 
particular, created a lot of grievances with the population due 
to human rights issues. In the end, frankly, when you are 
arming warlords and other illicit actors that are not strongly 
within the command and control of the government, they are 
acting out for themselves. They act on behalf of themselves.
    If they need to switch sides, retreat or whatever because 
it is best for them, regardless of whether it is best for the 
good of the nation, they will do so. We saw that with two key 
warlords, in particular, according to the New York Times and 
other reports in Kunduz itself, and we have seen it in other 
locations.
    We also see it in issues with the Afghan National Security 
Forces themselves and the police. If the police are considered 
highly predatory in a particular location, if their level of 
unofficial actual taxation, extortion, is higher than, for 
example, the Taliban, there are cases where it could actually 
make rational sense for individuals to go to the side of the 
Taliban. The grievances that come with that as well can push 
people to the side of the Taliban.
    Take, for example, corruption in land. This is one of the 
major reasons that has been assessed for local violence in 
areas, but also when people lose their land, when there is no 
grievance resolution mechanisms that can be used legally, 
people will naturally go to the other side, if that is a side 
that promises to help them get their land back, settle their 
grievances, perhaps provide a cleaner level of grievance 
resolution, provide a better level of judicial services.
    So you cannot get ahead in a security environment if the 
corruption environment is undermining every set of security 
gains you make.
    Senator Cardin. I think that is very helpful. I agree with 
your statement, and I think you do give us a roadmap for how we 
need to try to develop the U.S. role in Afghanistan in fighting 
corruption, because it is very much related to security of the 
country, the economic future of the country, and everything 
else.
    Ambassador Cunningham, In your statement you put your 
finger on the principal challenge with Pakistan as it relates 
to Afghanistan. I am quoting from your testimony, ``The test 
will be whether Pakistan takes concrete actions not only to 
support reconciliation, but to reduce the ability of the 
Taliban and the Haqqani network to plan and launch operations 
from Pakistan, which greatly diminishes the prospects for real 
negotiations.''
    To understate it, we have a complicated relationship with 
Pakistan. What can the United States do in its bilateral with 
Pakistan to further the prospects for reconciliation and peace 
in Afghanistan?
    Ambassador Cunningham. Well, Senator, congratulations for 
putting your finger on exactly the most vexing question that 
immediately comes to the fore when you are talking about how to 
bring an end to the conflict. Now that I am out of government, 
this is something I want to use my current position with 
Atlantic Council to see if we can develop some fresh thinking 
about.
    As somebody who sat in Kabul for 3.5 years, knowing that 
every day that I was there, somebody from Pakistan was trying 
to kill the people that I was responsible for, I have a certain 
strong feeling about that dynamic.
    I think the levers that we have tried to use, leverage, and 
incentives that we have tried to use, as Ambassador Olson said 
in his remarks, I think there has been a conceptual shift among 
Pakistan's leaders. There certainly has been a shift in the 
rhetoric over the last couple years. The statements made in 
Islamabad at the Heart of Asia meeting do open up some new 
perspectives, perhaps.
    The challenge is to find a way to change the strategic 
calculations of not just the Taliban and the Haqqanis 
themselves, to get them pushed toward negotiation--at least the 
Taliban; many people think the Haqqanis are not reconcilable--
but how to end what you might politely call hedging behavior on 
the part of Pakistan.
    In their defense, they have suffered a lot in their own 
fight against terrorism. They do not have very much confidence 
in developments in Afghanistan, as I understand it. They too 
have long had questions about what the United States would 
ultimately do in Afghanistan.
    We need to resolve those issues in our own interests, in 
our own interests in dealing with the threat of terrorism from 
that part of the world, and then use the clarity about our 
intent and purpose, and that of our partners, to affect 
calculations that up to now have prevented the opening of the 
doors that need to be open to have a real discussion about what 
the future of that region looks like and a future that benefits 
Pakistan as well as Afghanistan.
    Senator Cardin. Well, I look forward to your active 
engagement as a private citizen on this issue, because we need 
to figure this out. I mean, it is so challenging. Some of our 
private discussions are so much different than the public 
discussions. The reality is, unless we have a constructive role 
by Pakistan here, it is going to be very difficult to see the 
reconciliation move forward. So I appreciate your comments on 
that.
    Mr. Jalali, I also appreciate you being here. I am just 
going to acknowledge that your statement that the key factor in 
improving prospects for sustained political economic and 
security cooperation with the National Unity Government is to 
implement the promised structural electoral and functional 
reforms with the Afghan state. I think that is absolutely 
essential. It deals also with Dr. Vittori's comments and 
Ambassador Cunningham's.
    It really is a question of whether we can put confidence in 
the reforms in Afghanistan that can really bring in all sectors 
of Afghanistan for security and economic prosperity.
    So I thank all three of you again for your testimony. I can 
assure you it has had an impact on our committee.
    The Chairman. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    And thank you to the witnesses. I have a lot of questions, 
but am just going to ask one that intrigues me. ``The 
Administration's Strategy in Afghanistan'' is the title. One 
key element of the administration strategy was successful 
elections at the end of the Karzai tenure year. There were 
efforts to destabilize those elections that were generally 
unsuccessful, so that was a positive.
    But then the election led to a result that was a potential 
disaster, a stalemate. The U.S. played an important role. The 
administration played an important role in helping to broker 
the formation of the partnership between President Ghani and 
CEO Abdullah. The title chosen was the National Unity 
Government, which sets a pretty high standard.
    It seems to me that virtually all of the issues we are 
talking about today, whether the security issues, or whether 
anticorruption activity, or whether the right relationship vis-
a-vis Pakistan, all of these depend upon the National Unity 
Government being a national unity government.
    So I would just like each of you to offer, from your own 
perspectives, a year plus into this, how cohesive and 
professional is the working relationship between Ghani and 
Abdullah, and their constituents? If you want to share 
positives and negatives, or positives and work that remains to 
be done, I am really interested in that dynamic a year-plus in.
    Mr. Jalali. Thank you, Senator. This is a very important 
question, which is being discussed daily in Afghanistan, too.
    Unfortunately, the campaign for the presidential elections 
turned into a kind of campaign that was not aimed at making a 
difference, but it was aimed at winning the election. This way 
the two camps brought together----
    Senator Kaine. We do not know anything about that kind of 
election.
    The Chairman. I was going to say, they learned well. 
[Laughter.]
    Mr. Jalali.--an odd assortment of different groups with 
different agendas, different interests, different visions. When 
the two camps actually finally agreed to form this National 
Unity Government, then that problem was there.
    Now the two major challenges that faced this government 
from day one were how to maintain unity, keep everybody happy, 
but at the same time be effective in governance. I think the 
government failed to have that balance.
    Many supporters of the two leaders have their own 
interests. This actually reflects appointments of people who 
are considered the allies of different elements of these 
groups. That actually undermines the professionalism of the 
armed forces, and also it stalls the appointment of people to 
keep positions.
    I think on the previous panel it was said that the Minister 
of Petroleum and Mining said they cannot fill 290 positions 
there. It does not mean that there are not qualified people, 
because the two leaders should agree--not only the two leaders, 
but also their allies--should agree on these positions. That 
makes this government unfunctional in many areas.
    Second, the government with the two leaders, Dr. Abdullah 
and Dr. Ghani, both are my good friends, they have good 
relations with each other but they have to listen to their 
other allies. Therefore, they share the authority to appoint 
people. This makes appointments very, very slow.
    On the other hand, this also brings another problem. The 
problem is, instead of working through institutions, empowering 
institutions, individuals are becoming empowered. That 
undermines the effectiveness of the government.
    So, therefore, I think the real solution is what is in the 
deal. It says at the end of the 2 years a new agenda should be 
called in order to legalize the system, in order to end this 
duumvirate in the government. If Dr. Abdullah is there with a 
review of the constitution, and it becomes a Prime Minister, 
then he will be Prime Minister. Then he will work for the 
President. Now, President and CEO, who is appointed by the 
decree of the President, he has the same power, equal power, 
authority.
    The third, while the President has constitutional 
legitimacy, it has its power and authority from the 
Constitution. Dr. Abdullah gets it from the decree of the 
President. However, he does not have that power 
constitutionally. Therefore, he plays his political card. 
Therefore, we see an opposition within the government.
    Senator Kaine. Mr. Cunningham, you are such an important 
part of a really successful negotiation. I think it was a huge 
coup with your role, Secretary Kerry's role, and others, in 
trying to promote the formation of the unity government to get 
over the electoral impasse.
    Your sense of it a year in I am quite interested in.
    And, Mr. Jalali, thank you for your thoughts. I really 
appreciate that.
    Ambassador Cunningham. I will have to decide in due course 
whether this is something I want to be remembered for or not.
    Let me say, by way of context, first, nobody ever thought 
this was going to be easy. It was very clear from the beginning 
this was a difficult enterprise.
    Both Dr. Ghani and Dr. Abdullah, each of them genuinely 
believe that he won the election. So did their followers.
    So as we were even starting to begin the discussion, there 
was already a huge gap, each side feeling that it had won the 
election; therefore, why was it being asked to enter into a 
discussion with the other side about what the government would 
be like? This was also in the context of lack of clarity by 
what the outcome of the elections would eventually prove to be.
    So it was a very fraught political exercise, and anybody 
who has been involved in politics, if you just put yourself in 
their place for one second, you realize how difficult this was. 
Even countries that have experience in creating coalition 
arrangements in governing find it difficult to come to 
agreement and to then implement a government. There is no 
experience in doing this in Afghanistan at all.
    So it is no surprise that they were struggling.
    I agree with Mr. Jalali. The relationship between the two 
men is pretty good. They each understand what is at stake. To 
their credit, they both took an incredibly responsible and 
statesmanlike decision to put aside what their personal 
preference would be and to focus on the good of the country.
    The problem is, keeping that focus is incredibly difficult, 
and it is much more difficult for the people around them as 
they go through the difficult dynamics of actually governing, 
making decisions, making appointments, and all the rest of it.
    Everybody is disappointed that they have not made more 
progress, including both of them, I know from speaking to them. 
They remain committed to trying to make this work because they 
believe, as I did and as I still do, that there is no better 
alternative for Afghanistan than making this work, even if it 
is painfully difficult.
    The alternatives to forming the National Unity Government 
or an alternative now to it in some form can never create the 
kind of unity, even if it is only formal unity, that the 
country requires.
    Indeed, our discussion about the need for unity after the 
elections began more than a year before the elections actually 
took place, because Afghanistan's political classes, as I was, 
were concerned about the prospect of the elections leading to a 
breakup in the political fabric and eventually a breakup in the 
country.
    So we talked. We began a discussion long before the 
elections about the need to not produce an outcome that would 
split the north and the south and Pashtuns and Tajiks and Shia 
and Sunnis.
    Afghanistan has existed as a country for many centuries. 
Afghans have seen what happens when that cultural and political 
consensus spins apart, as it did during the civil war. They 
have looked into the abyss. That is the thing that gives me 
optimism that this will continue to work, because the 
alternatives are dangerous for them and ultimately dangerous 
for us.
    Senator Kaine. Mr. Chair, I am over time, but can I ask Dr. 
Vittori to address it please?
    The Chairman. Sure.
    Senator Kaine. Thank you.
    Dr. Vittori. Thank you, Senator.
    As has already been mentioned, both candidates ran on a 
strong anticorruption platform. So, in theory, this should be a 
very, very transformative government, very broad-based. If they 
are both sincere about corruption, they should be able to 
transform the government significantly.
    But governments are more than just two individuals. There 
are a number of individuals of varying quality beneath the 
executive office that have to be contended with and significant 
patronage networks that still remain within the government that 
have to be worked with, to be frank.
    So while there is no poll data or other academic data, we 
do continue to hear concerns from the field that because of the 
preexisting patronage networks that have made the government so 
difficult to work with, that now there could be two sets of 
parties to pay off instead of one, which would be an indicator 
why we do see the statistical analysis of corruption has grown 
and not shrunk between 2014 and 2015, according to the Asia 
Foundation survey.
    It also speaks to the importance of institutionalizing 
reforms, putting in good legislative laws and so forth, which 
are necessary but not sufficient in the government, and 
professionalizing a civil service away from individuals and 
more to professionalized civil service organization to begin to 
break those patronage networks, to pull it from the individual 
and toward a professionalized government that can work for the 
good of the country versus the good of individual strongmen and 
other interests.
    Thank you.
    Senator Kaine. Thank you very much. You have answered from 
different directions, but there are some consistent themes 
among the three answers. I appreciate your testimony.
    Thank you, Mr. Chair.
    The Chairman. We are about at that time, but I just want to 
follow up a little bit on that. I know when we go into a 
culture, and we want to make things happen quickly, we 
obviously are dealing with a culture where they are at that 
moment. We hope to have things put in place over time that 
cause corruption and other kinds of things to dissipate and go 
away. But when we begin, we are dealing with a culture as it 
is.
    I am just wondering if there are any lessons learned that 
you might be willing to share with us. When we enter a country 
like this on the front, do we sometimes send mixed signals 
relative to our actions in trying to generate immediate 
outcomes and our rhetoric as to what we want to see them do 
over time?
    That is you, Doctor.
    Dr. Vittori. If I may wear my professor hat in this case, 
one of the issues we will deal with when we go into countries, 
we never go into a country that is in a good situation. By 
definition, we do not go to places that are strong and stable, 
and so forth. If we are going in with the 82nd Airborne, we are 
going because the situation is already a problem.
    That means that, unfortunately, corruption, statistically 
speaking, is probably already very high. The state has been 
fragile. And most likely, they have been through a number of 
cycles of warfare in these countries.
    So unfortunately, there will be cases where you essentially 
have to rent your friends when you first go in to get access, 
because those are the individuals who can give you your 
airfields, your intelligence, and so forth. That involves 
suitcases of cash.
    But if you are still going through 10 years, 15 years into 
a warfare where you are still handing out suitcases of cash to 
try to rent your friends, mission success is going to be 
extremely difficult to get to at that point.
    I think the biggest lesson we are learning in all of these 
operations in any of the countries that we have dealt with, 
whether we are looking at Iraq, or whether we are looking at 
Afghanistan, is when we first go into the country everybody 
wonders what the new rules of the game are going to be. 
Everything is up in flux. Will the United States be putting in 
strong institutions? Will NATO be putting in strong 
institutions? Will there be prosecutions for previous war 
crimes? Will there be accountability put in? Transparency put 
in? What can individuals get away with? We saw that in 
Afghanistan as well.
    It is one of those situations where an ounce of prevention 
is really worth a pound of cure. Dealing with those issues 
right away, establishing good governance along with security is 
much easier in the earlier stages when everybody is waiting to 
see what is going to happen. It's easier to weed it out early, 
rather than wait until the entrenched interests have gotten in 
there with their money and their militias and so forth.
    Now you have a problem where weeding out corruption is 
probably generational at that point when you have gotten that 
far.
    So I would say the lessons learned from Afghanistan we 
should be seeing applied to places like Ukraine. Where is that 
oversight and accountability? They have a tremendous corruption 
issue.
    How do we deal with oil politics, pipeline politics, and 
the resource sorts of issues that can face Ukraine? How have we 
insulated the Ministry of Defense and Ministry of Interior 
there against corruption and ensuring, for example, that 
promotions are merit-based, ensuring that logistics networks 
are sound, that quartermaster general groups, and so forth, are 
not diverting assets that should be going to Ukrainian troops 
and instead be putting it, for example, on the black market or 
even being sold potentially to enemies? If that does occur--
there is no information I know of that it occurs.
    When we first go into locations, whether diplomatically or 
militarily, how do we start that process early on and shape the 
battle space, if you will, so that the rules of the game come 
out with a rule of law, governance, a solid military, and the 
democratic reforms that you would like.
    Thank you.
    The Chairman. Well, you gave the answer that I thought you 
would give.
    When we go in, we go in to a crisis mode. We want things to 
happen quickly. I think, again, we establish on the front end 
that--and I understand this may be out of necessity--but we 
start building on the existing culture of corruption, 
especially when you are dealing with people like we had in 
leadership there up until recent times.
    It just perpetuates that. It is almost I guess a joke. We 
hear the stories of our guys going in to meet with a former 
leader there about corruption, and then right behind him would 
be somebody coming in with suitcases, as you were talking 
about.
    So I think it is real challenge for us.
    On that note, moving back to the Ambassador, since you are 
on the private-sector side now and utilizing your experiences 
around the world to help look at things in a new way, just 
briefly, at 30,000 feet, do you have any advice for those of us 
who still are here on the inside as it relates to going into 
countries like Afghanistan, like Iraq, potentially portions of 
Syria, if you will? Any advice to us as we look at trying to 
reconfigure those, if you will, in our own image?
    Ambassador Cunningham. First of all, let me say how much I 
appreciate your personal continued interest in this. And I know 
you have a lot of other business pending.
    I think one of the lessons of Afghanistan--I was not 
directly involved in Iraq. I was indirectly involved, through 
my work at the United Nations. But I think one of the lessons 
in both places, actually, is that we tend to overestimate our 
reach and our capabilities.
    It is exceedingly difficult to refashion or repair another 
culture, to repair a broken state, especially in a situation 
where you have imperfect knowledge of how it operates, how the 
culture operates. You have people cycling out after 1-year 
tours. I would just say it is difficult.
    When I got to Afghanistan in the summer of 2011, it was at 
the peak of the military surge, which was actually already 
starting to turn around. I was instructed to complete the 
civilian surge, which we had not quite topped out at, which we 
never did, because as soon as I got there I realized that we 
needed to reverse course along with the military.
    The Chairman. Just to refresh our memory, those time spans, 
the years were?
    Ambassador Cunningham. I got there in the summer of 2011. 
When I got there, we Americans and our partners, out of the 
best of motives, were still trying to fix every broken window 
in the country. That impulse and the amount of money that was 
available, which people were trying to manage, and doing so in 
a very good faith, created a whole bunch of secondary and third 
level effects that I do not think we understood very well.
    The Chairman. Damaging to their society.
    Ambassador Cunningham. Damaging. It did a lot of good, do 
not get me wrong. I know none of the statistics and benefits 
that the other panelists cited would have happened without that 
effort.
    But I guess I would say that one lesson learned is that we 
need to be--first of all, I hope that we are not going to be 
doing that sort of thing in the future.
    But to the extent we are, I think we need to learn lessons 
a little about the limits of our capabilities to actually 
accomplish the very good things that we might want to 
accomplish under those kinds of circumstances.
    We, certainly, need to do a good job of learning what 
worked and did not work in Afghanistan.
    The Chairman. Listen, you all have been very, very helpful. 
We thank you for the service you have provided our Nation and 
the service you are providing now on the outside. Hopefully, 
you will be back up to help us again in the future.
    If you would, we would like to leave the record open until 
the close of business Monday. And if questions come in, 
hopefully you will answer those fairly promptly.
    The Chairman. With that, without further ado, unless you 
would like to close with any kind of comments, and I see no 
nods, the meeting is adjourned. Thank you so much.
    [Whereupon, at 4:57 p.m., the hearing was adjourned.]

              Additional Material Submitted for the Record


      Responses to Additional Questions for the Record Submitted 
                      by Members of the Committee

  responses to questions submitted by senator cardin to larry sampler
    Question. There are consistent reports that Afghan commanders who 
have received U.S. support command forces that have engaged in serious 
human rights abuses, including torture, disappearances and 
extrajudicial executions. Our security assistance to Afghanistan is 
primarily administered by DOD, not the State Department as it is in 
other environments.
    What is the timeline for moving the provision of security 
assistance under the auspices of the State Department?

    Answer. Given the magnitude and the nature of security assistance 
required for further support to the Afghan National Defence and 
Security Forces (ANDSF), DoD's Afghan Security Forces Fund (ASFF) 
remains the most effective option to assist the ANDSF towards self-
sufficiency. The ASFF program allows the United States to provide 
extensive, robust, and diverse assistance to the ANDSF, including to 
the Afghan National Army and the Afghan National Police.
    Absent a major change in the budget environment for State 
Department global foreign assistance, the Department will not be able 
to absorb such a large program without significant global tradeoffs. In 
2015, Congress appropriated $4.1 billion for ASFF alone. The global FMF 
budget is approximately $6 billion annually. While future costs are 
expected to decline over time as the ANDSF achieves greater 
efficiencies and the Afghan government bears more of the financial 
burden, we expect the cost of the ANDSF will continue to exceed what 
the State Department's budget and oversight can absorb for years to 
come. We must carefully calibrate the transition from DoD to State to 
ensure force development efforts continue apace and that there is 
sufficient funding for all existing ANDSF requirements.


    Question. Are you confident that Leahy Law vetting has been well 
administered in Afghanistan? Many concerns have been raised about the 
provision of security assistance to certain Afghan commanders like 
General Raziq in Kandahar.

    Answer. The State Department takes great care to address Gross 
Violations of Human Rights in accordance with Leahy Law for all State 
Department-funded security assistance in Afghanistan, and we actively 
coordinate with DoD on assistance primarily administered by the Defense 
Department. In determining eligibility for this security assistance, 
the State Department uses the International Vetting and Security 
Tracking (INVEST) application as the official system for conducting 
Leahy Law vetting. This internal database catalogues derogatory 
information, including human-rights related and other adverse 
reporting, and embassies upload specific information for further review 
as the vetting process continues. The program works. As a result of 
Leahy vetting, certain Afghan units and individuals have been denied 
U.S. assistance due to credible information of gross violations of 
human rights.
    U.S. security assistance to Afghanistan is primarily administered 
by DoD, not the State Department as it is in more traditional settings. 
Leahy Law vetting procedures are applied to DoD assistance in 
accordance with DoD funding legislation. State and DoD work together to 
proactively evaluate alleged gross violations of human rights (GVHR), 
withhold assistance where appropriate, and encourage Afghan government 
officials at all levels to hold perpetrators of GVHR accountable for 
their actions. We take all allegations of GVHR seriously and continue 
to press the Afghan government--including the Afghan National Defense 
and Security Forces--to improve its human rights record.
    State and DoD actions to encourage improved human rights practices 
led to the completion of two separate military prosecutions and 
convictions of GVHR violators during the past year. In one instance, 
members of a small unit in Afghanistan committed three extrajudicial 
killings. Their Division HQ immediately initiated an investigation, and 
after a credible trial, the perpetrators were punished. In accordance 
with Leahy Law, these accountability measures enabled us to resume 
assistance to the unit and strengthened our security partnership.


    Question. The initial Pentagon investigation of the MSF Kunduz 
strike in October concluded that the strike on the hospital was not 
intentionally directed at the MSF facility: the intended target was 
supposedly a government building allegedly occupied by Taliban forces. 
But new allegations have been made that US Special Forces may have 
relied on intelligence from Afghan forces actually targeting the MSF 
hospital intentionally, or that they were manipulated by Afghan forces 
into attacking the hospital.
    Do you view the matter as still open, whether the events occurred 
as the Pentagon investigation indicated or occurred in another 
different way?

    Answer. We believe DoD conducted a thorough, comprehensive and 
impartial investigation of this tragic incident and was able to 
accurately determine the facts of what transpired. We have high 
confidence in the DoD investigative process and findings, and would 
refer you to DoD for further questions.


    Question. What is the State Department's position: that the matter 
is settled, or that ongoing investigation is still looking at the 
latter version of events as a possible explanation of what happened?

    Answer. We are confident that the U.S. military's investigation 
provided a full, informed, and objective account of this tragic 
incident. We consider the DoD investigation to be a factual and 
authoritative account of what occurred and consider this matter 
settled. We refer you to DoD for further questions.


    Question. Afghanistan's long term development will be determined by 
good trade relations with its neighbors. The administration's New Silk 
Road initiative is meant to help cement these links by improving 
economic connectivity throughout South and Central Asia. China's One 
Belt, One Road program which has pledged billions in infrastructure 
across the region potentially supplanting or complementing U.S. efforts 
in this space.
    How does the administration view One Belt, One Road, with respect 
to our Afghanistan policy?

    Answer. We view China's involvement in Central Asia as potentially 
complementary to our Afghanistan policy and our New Silk Road 
initiative. In particular, we see an important role for China in 
supporting the transition in Afghanistan, and advancing economic 
integration into the broader region.


    Question. What is the status and challenges we face with the U.S. 
led New Silk Road initiative?
    The U.S.-led New Silk Road initiative is progressing well. Some 
recent accomplishments include: completion of the final power purchase 
agreements for all parties in the Central Asia South Asia (CASA-1000) 
electricity transmission project; Asian Development Bank commitments 
for funding of the Turkmenistan-Uzbekistan-Tajikistan-Afghanistan-
Pakistan (TUTAP) power project; and forums that facilitate cross-border 
business ties in the region. A key challenge has been the relative lack 
of interaction and coordination among Central Asian countries and 
Afghanistan since the dissolution of the Soviet Union, which has made 
implementation of cross-border programs difficult. However, the 
countries in the region are beginning to take the initiative and 
address these regional issues themselves, thereby making the New Silk 
Road initiative more effective and sustainable over the long run.


    Question.  Maintaining oversight of our development programs and 
evaluating their impact has to be an integral part of any 
reconstruction strategy. Monitoring and evaluation is especially 
important in Afghanistan because USAID has spent more than $17 billion 
since 2002 to improve Afghans' security and prosperity and to support 
U.S. national interests. That makes it all the more concerning when the 
USAID Inspector General reports that in Afghanistan out of 127 projects 
that we have awarded in the past year, only 1 had proper oversight. 
USAID has not provided technical offices with any guidance or 
procedures for how to conduct our new multi-tiered monitoring system.

  <diamond> Given the revelations of the USAID IG report, how does the 
        Administration plan on implementing the recommendations laid 
        out in the report?

    Answer. USAID welcomes the release of the Office of Inspector 
General (OIG) Report, ``USAID Afghanistan Strategy for Monitoring and 
Evaluation Program throughout Afghanistan,'' as it offers an objective 
assessment of our monitoring procedures and proposes a number of 
constructive recommendations to improve USAID's performance monitoring 
and evaluation (M&E) processes across all technical sectors in 
Afghanistan. USAID requested that the Inspector General audit 
Afghanistan's multi-tiered monitoring (MTM) approach to help identify 
potential monitoring gaps as early as possible and make appropriate 
corrections. The audit is already helping to further refine the 
monitoring program for Afghanistan. USAID/Afghanistan has already 
closed three of the nine audit recommendations, and plans to close the 
remaining six recommendations by the end of calendar year 2016. The 
status of these audit recommendations is detailed in Tab 1.
    We would like to clarify that during the audit period, OIG did not 
request to review all of USAID/Afghanistan's MTM plans, and instead 
conducted a spot check of six MTM plans. This spot check was not meant 
to be a comprehensive data collection across all 127 USAID/Afghanistan 
projects. Additionally, one project provided the OIG with documentation 
of how the MTM approach was being implemented at that time--using an 
Excel spreadsheet called the Monitoring Capture Tool. The Monitoring 
Capture Tool tracks all of the monitoring data received for a specific 
project and is used to assess the level and quality of monitoring being 
conducted. It is important to note that while other USAID/Afghanistan 
projects were also using this recommended tool at the time of the 
audit, only one was included in the spot check to the OIG as an example 
of how this tool could be used to collect and track monitoring data 
from the various tiers.
    USAID is currently drafting a revised mission guidance, expected to 
be completed in February 2016, in which USAID will implement a 
comprehensive set of procedures to further standardize our monitoring 
approach and establish key trigger points for taking action based on 
the monitoring information we collect. Additionally, the Monitoring 
Capture Tool will be mandated for all projects.
    Regarding our overall monitoring approach, USAID ensures that all 
projects receive proper monitoring and oversight, in compliance with 
the Agency's standard practices. For example, all projects are required 
to have an M&E plan, which identifies indicators and milestones that 
the implementing partner is required to report on at specified time 
periods. USAID also has a Mission-wide Performance Management Plan for 
Afghanistan to track indicators and progress across the portfolio. 
Moreover, the Mission holds semi-annual portfolio reviews to assess 
progress across all sectors development objectives.
    In addition to these standard practices, USAID/Afghanistan has been 
developing multi-tiered monitoring (MTM) plans for all projects. These 
MTM plans are tailored to each project, assist project managers in 
identifying how various sources of data will guide monitoring, and 
reinforce the practices we have employed for many years to ensure that 
we are achieving results. To date, 65% of our off-budget projects have 
a formal MTM plan, and by the end of the calendar year all will have 
formal plans.
    Although there are inherent risks in doing business in a country 
like Afghanistan, USAID prioritizes the effective and accountable use 
of taxpayer dollars and does not assume that there is any level of 
acceptable fraud, waste, or abuse in our programs. This means that 
oversight must be a process of continual re-examination of ongoing 
efforts, and that there must be flexibility to adjust to new security 
and operational challenges as they arise. As USAID looks to 2016 and 
beyond, the Agency is committed to making every effort to safeguard 
taxpayer funds and effectively monitor projects to ensure that 
development progress in Afghanistan is maintained and made durable in 
order to secure our overall national security objectives.

Tab 1: Status of audit recommendations:
    Recommendation 1. We recommend that USAID/Afghanistan implement 
written standards for what constitutes effective, sufficient oversight, 
including the amount of monitoring deemed necessary for an activity to 
continue, the relative contributions of the five tiers, and potential 
events that warrant a decision on the status of the activity.

    Actions Taken/Planned: USAID/Afghanistan is drafting a new 
Performance Monitoring Mission Order that will provide guidelines to 
all Mission staff on the level of monitoring needed for effective 
monitoring. These guidelines will include written standards that 
provide a process by which to analyze monitoring efforts and implement 
monitoring plans to ensure monitoring efforts are being carried out. 
The Mission Order will also identify trigger points affecting project 
implementation that will warrant a decision to be made by Mission 
Leadership as to the status of the activity. The mission plans to 
implement this mission order in February 2016.

    Target Closure Date: February 2016


    Recommendation 2. We recommend that USAID/Afghanistan implement 
written procedures for having mission managers decide whether to 
continue an activity if standards are not met or if such future events 
occur.

    Actions Taken/Planned: USAID/Afghanistan is drafting a new 
Performance Monitoring Mission Order that will identify trigger points 
affecting project implementation that will warrant a decision to be 
made by Mission Leadership as to the status of the activity.

    Target Closure Date: February 2016


    Recommendation 3. We recommend that USAID/Afghanistan prepare a 
written determination to add a module to capture and analyze monitoring 
data in Afghan Info, or establish a different system to store 
centralized monitoring data for analysis and set a deadline for making 
any design changes.

    Actions Taken/Planned: USAID/Afghanistan is drafting a new 
Performance Monitoring Mission Order that includes a provision to 
mandate all program/activity managers utilize the Monitoring Capture 
Tool (MCT), which has data visualization capabilities, to document and 
track their monitoring efforts. The MCT will eventually become web-
based as part of a monitoring system/portal to be designed under Task 
Order 4 of the Monitoring Support Project.

    Target Closure Date:  February 2016 for the Mission Order to be 
completed. Task Order 4 procurement is estimated to start the second 
quarter of FY 2016 and the Mission has set a target date of December 
10, 2016 for final action


    Recommendation 4. We recommend that USAID/Afghanistan implement 
procedures to periodically reconcile awards listed in Afghan Info with 
records held by the Office of Acquisition and Assistance (OAA), the 
Office of Program and Project Development (OPPD), and technical 
offices, including those based in Washington, D.C., and update Afghan 
Info as necessary.

    Actions Taken/Planned: The Mission has created an Excel spreadsheet 
that serves as the master list for all awards implemented by USAID/
Afghanistan. Staff members confer with all relevant offices in Kabul 
and Washington D.C. to update the awards list on a weekly basis. The 
weekly awards list is distributed to staff in the Mission and USAID 
Headquarters. The updated awards list will be uploaded into Afghan Info 
on a regular basis.

    [This recommendation has been closed.]

    Recommendation 5. We recommend that USAID/Afghanistan adopt a 
policy of reviewing Mission Order 203.02 or any subsequent order on 
monitoring at its quarterly monitoring review meetings to ensure all 
staff are aware of the requirement to promptly verify and approve 
reports submitted in Afghan Info.

    Actions Taken/Planned: The Mission will distribute copies of the 
new Performance Monitoring Mission Order (currently being developed) to 
all program/activity managers at its next Quarterly Monitoring Review, 
and ensure a discussion on the Mission Order is included as one of the 
agenda topics. Furthermore, the Mission will re-institute the use of 
Afghan Info Quarterly Dashboards, which will track data submission and 
data review in the system. These dashboards, which will be created for 
each sector and show the status of data submission into Afghan Info, 
will be distributed to all technical office directors and Mission 
leadership.

    Target Closure Date:  The Mission set a target closure date for 
July 31, 2016 for final action.


    Recommendation 6. We recommend that USAID/Afghanistan implement a 
strategy to analyze project performance information and make 
recommendations to Mission leaders in light of anticipated staffing 
reductions and travel restrictions.

    Actions Taken/Planned: USAID/Afghanistan is drafting a new 
Performance Monitoring Mission Order that will identify ``trigger 
points' ' affecting project implementation that will warrant a decision 
to be made by Mission Leadership as to the status of the activity. 
Please see Actions Taken/Planned under Recommendation 2 for more 
details.

    Target Closure Date:February 2016


    Recommendation 7. We recommend that USAID/Afghanistan develop 
procedures to verify annual monitoring plans required under Mission 
Order 203.02 or any subsequent order on monitoring are prepared and 
used to structure activities of its third-party monitors.

    Actions Taken/Planned: USAID/Afghanistan is drafting a new 
Performance Monitoring Mission Order that mandates the use of 
Monitoring Overview plans for each program/activity manager. The 
Monitoring Overview plan will be customized and tailored to the 
individual implementing mechanism, and allows program/activity managers 
to plan the use of third party monitors as part of a systematic 
monitoring plan. This new requirement replaces Mission Order 203.02 
mandate to develop annual monitoring plans by technical office.

    Target Closure Date:  February 2016


    Recommendation 8. We recommend that USAID/Afghanistan implement 
procedures to help ensure that all evaluations, assessment reports, and 
recommendations are recorded and tracked in Afghan Info

    Actions Taken/Planned: USAID/Afghanistan utilizes an evaluation 
tracking tool to track all evaluations and assessments broken out by 
fiscal year. The evaluation tracking tool includes data fields that 
document and track how each evaluation and assessment report was 
utilized by the technical office/Mission. The Afghan Info evaluation 
module does not allow for the level of detail currently available on 
the evaluation tracking tool. Therefore, the Mission will continue to 
use the evaluation tracking tool in lieu of Afghan Info to record and 
track evaluations, assessment reports, and recommendations.

    [This recommendation has been closed.]


    Recommendation 9. We recommend that USAID/Afghanistan implement 
procedures to follow up on the status of open evaluation 
recommendations periodically.

    Actions Taken/Planned: Mission Order 203.03 Evaluation, effective 
August 15, 2015 details how the Mission will respond to and share 
evaluation findings. The Mission will create written action plans for 
addressing evaluation findings, conclusions, and recommendations and 
status updates on these action plans will be discussed during regular 
portfolio reviews.

    [This recommendation has been closed.]


    Question 2. Throughout the past 13 years, high levels of corruption 
and bad governance have seriously thwarted our efforts to stabilize 
Afghanistan. Despite President Ghani coming to power last year on a 
pledge to clean up corruption, progress has been halting. In the last 
couple of weeks we have seen several senior level officials in 
Afghanistan's Independent Joint Anti-Corruption Monitoring and 
Evaluation Committee resign.

  <diamond> a) What is our assessment of the effectiveness of the MEC? 
        What level of confidence does the Administration have in the 
        ability of the MEC to bring meaningful change in Afghanistan?
  <diamond> b) Can you describe any successful U.S. programmatic 
        initiatives that have helped to stem corruption in Afghanistan?

    Answer. a) USAID is committed to fighting corruption in Afghanistan 
by partnering with the Afghan government and civil society to foster 
fair, efficient, and transparent governance. As a part of this effort, 
USAID is working with other donors to strengthen institutional capacity 
of Afghanistan's Independent Joint Anti-Corruption Monitoring and 
Evaluation Committee (MEC) to conduct Vulnerability to Corruption 
Assessments (VCAs) and produce recommendations to mitigate and/or 
eliminate identified vulnerabilities to corruption. The MEC has been an 
important partner to USAID's anti-corruption efforts, and continues to 
gain significance amongst Afghan government institutions. This year 
alone, the MEC received and reviewed more than 22 plans from 18 
Ministries and 4 other Agencies to ensure the plans included anti-
corruption measures. The donor community continually works with the 
Afghan Government, including the MEC, to identify and address potential 
concerns over corruption.
    USAID, the UK's Department of International Development, and the 
Danish International Development Agency recently sent a letter to the 
MEC outlining specific areas of concern and recommendations for 
addressing these concerns as soon as possible. The concerns included 
the need for a coherent strategy to fight corruption and internal 
financial controls to ensure salaries and expenses are appropriate. 
These are issues that USAID, the donor community, and President Ghani 
take seriously as part of our mutual commitment to fight corruption.
    In its response to the letter, MEC stated its agreement to the 
recommendations and committed to strengthening its anti-corruption 
efforts. The MEC has accepted the Danish Embassy's offer to support the 
strengthening of the Committee's three-year strategic plan. In 
addition, President Ghani has approved the two international committee 
members submitted by international donors. USAID and the donor 
community consider these actions to be positive steps on the MEC's 
commitment to fighting corruption. We will continue to work with the 
Afghan Government, including the MEC, to address issues of corruption 
in order to ensure domestic and international funds are spent 
appropriately.

    Answer. b) Under the new Ghani administration, we have seen 
significant effort to reduce corruption. The Afghan government has 
recognized that its legitimacy and success depends in large part on its 
ability to tackle official corruption. Anti-corruption is a key part of 
the Government of National Unity's reform agenda, and President Ghani 
and CEO Abdullah have demonstrated that they understand the severity of 
the problem and the need to combat corruption at all levels. The United 
States has insisted that progress in countering corruption be part of 
the New Development Partnership incentive program with the Afghan 
government.
    USAID support has had positive impacts in helping the Afghan 
Government address corruption. USAID, through its Afghanistan Trade and 
Revenue (ATAR) Project and in coordination with the World Bank (WB) has 
supported the implementation by the Afghan Customs Department of 
systems and procedures to increase transparency and reduce corruption. 
For example, the recently introduced e-payment system expedites the 
release of goods at the border, reduces the need for traders to carry 
cash, and eliminates many face-to-face transactions that offer 
opportunities for graft. Using e-payment, traders can pay their customs 
fees at commercial banks throughout the country rather than at 
Da'Afghanistan Bank (DAB) offices within the customs houses.
    After a successful roll-out at the Kabul Airport in May 2015, on 
December 3, the Afghanistan Customs Department and DAB, with USAID 
support, expanded the customs e-payment system to Balkh Province. The 
system will eventually be extended throughout the country. Its 
expansion to eight border posts is a New Development Partnership result 
targeted for no later than December 2018.
    With USAID support through the Assistance to Legislative Bodies in 
Afghanistan (ALBA) program, the Parliamentary Anti-Corruption Caucus 
(PACC), created, administered and received signed Anti-Corruption 
Pledges from the following government officials:

  <diamond> presidential candidates (during the election), including 
        President Ashraf Ghani,

  <diamond> nominated ministers of the National Unity Government (24 
        out of 25 presiding ministers),
  <diamond> nominated members of the Supreme Court High Council,

  <diamond> nominated members of the Independent Commission for 
        Oversight of the Implementation of the Constitution, and

  <diamond> the Governor of the Afghanistan Central Bank.


    PACC representatives regularly participate in the weekly National 
Procurement Committee meetings, which are chaired by President Ghani. 
The PACC has established anti-corruption committees within several 
Provincial Councils to oversee the operations of provincial line 
ministries.
    The PACC conducts several activities which aim to prevent and 
reduce corruption within Afghanistan:

  <diamond> follows up with those officials who have signed the Anti-
        Corruption Pledge; this communication helps reduce and prevent 
        corruption in related institutions;

  <diamond> members speak out against corruption within National 
        Assembly plenaries; and

  <diamond> members oversee the performance of government entities in 
        order to prevent corruption.


    The PACC is currently working on furthering implementation of the 
Access to Information Law. The PACC is also currently discussing The 
Whistleblowers Protection Law in order to submit it to Parliament as a 
Members bill.

  <diamond> USAID provided input on the initial drafts of line 
        ministries' anti-corruption plans submitted to the Ministry of 
        Finance (MoF) charged with reviewing and coordinating the 
        development of anti-corruption strategies among the five 
        revenue-generating ministries: MoF, Commerce, 
        Telecommunications, Transportation, and Mines and Energy. The 
        plans are expected to be presented to the Cabinet of Ministers 
        for approval by the end of January, after which the Cabinet of 
        Ministers will use to monitor their implementation every 
        quarter.

  <diamond> Additionally, USAID is in a procurement stage of a five-
        year (Afghanistan's Measure for Accountability and 
        Transparency--AMANAT) anti-corruption activity to improve the 
        performance, legitimacy, and capacity of the Government of the 
        Islamic Republic of Afghanistan (GIRoA) to identify 
        vulnerabilities to corruption and to design and implement 
        measures to correct such vulnerabilities and improve service 
        delivery.

  <diamond> USAID, in collaboration with the Afghan Government, 
        included anti-corruption benchmarks as an incentivized result 
        in the New Development Partnership: for example one benchmark 
        required achieving 80% compliance on asset declarations for 
        Afghan Government officials. The Afghan Government has achieved 
        this benchmark and the associated funding was released.


                   response to question submitted by 
                  senator shaheen to ambassador olson

    Question. Mr. Olson, the National Defense Authorization Act for 
Fiscal Year 2016 imposed new statutory requirements regarding 
applications to the Special Immigrant Visa program for Afghans. Given 
that the intended purpose of the NDAA language was to increase the 
availability of Afghan SIV's to those who served alongside Americans, 
how does the State Department intend to interpret the new requirement 
as it pertains to ``submitting a petition,'' as stated in Sec. 1216 
(a)(1) of the FY 2016 NDAA, as well as the application of the above 
requirement relative to the effective date of September 30, 2015?

    Answer. The FY 2016 National Defense Authorization Act (NDAA) 
increased the minimum length of service required for Afghans applying 
for the Special Immigrant Visa (SIV) program authorized under section 
602(b) of the Afghan Allies Protection Act of 2009, as amended, from 
one year between October 7, 2001, and September 30, 2015, to two years 
between October 7, 2001, and December 31, 2016, for applicants who 
submit petitions after September 30, 2015. The Department, in 
consultation with the Department of Homeland Security (DHS), U.S. 
Citizenship and Immigration Services (USCIS), has determined that the 
term ``petition'' as used in the FY 2016 NDAA refers specifically to 
the form I-360 petition. All applications for Chief of Mission (COM) 
approval, as well as appeals of COM denials and revocations, that are 
reviewed after the FY 2016 NDAA was enacted on November 25, 2015, must 
include evidence that the applicant has two years of service as these 
applicants will submit form I-360 petitions to USCIS after September 
30, 2015.
    USCIS advised the Department that it approved, prior to enactment 
of the FY 2016 NDAA, approximately 200-300 I-360 petitions that it 
received after September 30, 2015, on the basis of one year of 
qualifying employment, and that USCIS considers these petitions to be 
valid because they met the requirements in effect at the time they were 
approved. Thus, in order to be eligible to receive an SIV, 
beneficiaries of petitions filed after September 30, 2015, and approved 
before November 25, 2015, must demonstrate during their immigrant visa 
interviews a minimum of two years of service. Principal applicants 
whose I-360 petitions were adjudicated by USCIS during this period who 
cannot demonstrate a minimum of two years of qualifying employment at 
their visa interviews will be refused under section 221(g) of the 
Immigration and Nationality Act and will be given a year to provide 
evidence of two years of service.

                     Afghanistan and U.S. Security


 A PAPER PREPARED BY THE ATLANTIC COUNCIL AND SUBMITTED FOR THE RECORD 
                     BY HON. JAMES B. CUNNINGHAM\1\
---------------------------------------------------------------------------

    \1\ Ambassador Cunningham was the principal author of this paper.



    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    


                                 [all]







                              
</pre></body></html>
